Report No. DODIG-2013-025                November 30, 2012




    Accountability Was Missing for Government Property
   Procured on the Army's Services Contract for Logistics
                 Support of Stryker Vehicles
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
ASA(ALT)                      Assistant Secretary of the Army (Acquisition, Logistics,
                                and Technology)
ASA(FM&C)                     Assistant Secretary of the Army (Financial Management
                                 and Comptroller)
BDAR                          Battle Damage Assessments and Repairs
CAP                           Contractor-Acquired Property
CDRL                          Contract Data Requirements List
CLIN                          Contract Line Item Number
CLS                           Contractor Logistics Support
DCMA                          Defense Contract Management Agency
DFARS PGI                     Defense Federal Acquisition Regulation Supplement,
                                Procedures, Guidance, and Information
DoD FMR                       DoD Financial Management Regulation
DPAP                          Defense Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
GOCO                          Government-Owned, Contractor-Operated
LMP                           Logistics Modernization Program
PMO                           Project Management Office
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics
USD(C)                        Under Secretary of Defense (Comptroller)
USSGL                         U.S. Government Standard General Ledger
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                       November 30, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Accountability Was Missing for Government Property Procured on the
         Army' s Services Contract for Logistics Support of Stryker Vehicles
         (Report No. DODIG-2013-025)

We are providing this report for information and use. We identified Government
property (Army-owned inventory), valued at roughly $892.3 million, that was not being
valued or tracked in Army property accountability systems or ·on the financial statements.
Our review of21 high-dollar parts, valued at $85.1 million, showed that 16 parts had
excess Stryker inventory of $72.7 million that could be either disposed of ($58.0 million)
or potentially used on other contracts ($14.7 million). During the audit, we found
170 empty engine containers, valued at $1.1 million, that General Dynamics determined
could be used to store a different engine, thereby reducing future requirements. This
report is the second of three reports on the effectiveness of the contractor logistics
support strategy for the Stryker family of vehicles.

We considered management comments on a draft of this report when preparing the final
report. Comments from the Director, Defense Procurement and Acquisition Policy;
Assistant Secretary of the Army (Acquisition, Logistics, and Technology), in
coordination with Assistant Secretary of the Army (Financial Management and
Comptroller); and Program Executive Officer, Ground Combat Systems, conformed to
the requirements of DoD Directive 7650.3; therefore, additional comments were not
required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).



                                          '   ' ~~ ~~"'-.)
                                                   111 .
                                         'Jlacq line L. Wicecarver
                                           Assistant Inspector General
                                           Acquisition and Contract Management
Report No. DODIG-2013-025 (Project No. D2011-D000CH-0032.001)                       November 30, 2012


               Results in Brief: Accountability Was Missing
               for Government Property Procured on the
               Army’s Services Contract for Logistics
               Support of Stryker Vehicles
                                                        property, not CAP, once delivered to the GOCO
What We Did                                             warehouse. Consequently, neither PMO Stryker
We evaluated the effectiveness of the contractor        nor General Dynamics accounted for the Stryker
logistics support strategy for the Stryker Family       inventory in appropriate property management
of Vehicles. The Project Management Office              systems. CAP business rules for cost-
for Stryker Brigade Combat Team (PMO                    reimbursable contracts were generally designed
Stryker) entered into the contract with General         to address “property acquired, fabricated, or
Dynamics Land Systems with a singular focus             otherwise provided by the contractor” that
to achieve an operational readiness rate goal of        would eventually be delivered to the
90 percent and actually achieved a readiness            Government as part of a higher level end item,
rate in excess of 96 percent. This report is the        not as used by the Army on its logistics services
second in a series of three reports and addresses       contract with no end item deliverable. While
controls over Government property (Army-                Stryker inventory consumed during the contract
owned Stryker inventory). The first report              periods of performance for the logistics services
addressed contract type and performance                 contract could possibly be considered CAP,
metrics. The third report will address contractor       most of the inventory identified in this report
billings.                                               was from prior contract periods and needed to
                                                        be delivered and accepted by the Army as
                                                        Government property.
What We Found
PMO Stryker officials did not properly account          As a result of incorrectly classifying Stryker
for Government property procured on the                 inventory as CAP, PMO Stryker did not:
cost-reimbursable services contract for logistics
support of Stryker vehicles. We identified              •   comply with multiple DoD and Army
19,365 different items of Stryker inventory                 property regulations designed to provide
(spare and repair parts) being managed by                   good stewardship and fiduciary
General Dynamics at a Government-owned,                     responsibility over Government property,
contractor-operated (GOCO) warehouse that                   support the Army goal of creating auditable
had not been assigned a value and recorded in               financial statements, and correctly use the
appropriate Army property accountability and                Army’s system designed to integrate
financial accounting systems. At our request,               logistics and financial operations; and
General Dynamics assigned a value to the
Stryker inventory of about $892.3 million.              •   implement a comprehensive inventory
                                                            management improvement plan that
Stryker inventory was not properly accounted                addressed overforecasting, total asset
for because PMO Stryker inappropriately                     visibility, excess inventory, economic
treated the inventory as contractor-acquired                retention requirements, and aggressive
property (CAP), while General Dynamics                      potential reutilization and disposal reviews
considered the inventory as Government

                                                    i
Report No. DODIG-2013-025 (Project No. D2011-D000CH-0032.001)                         November 30, 2012

to meet the intent of Public Law 111-84,                   not consumed during the contract period of
“National Defense Authorization Act for                    performance.
FY 2010,” Section 328, “Improvement of
Inventory Management Practices,”                           Additionally, the Program Executive Officer,
October 28, 2009.                                          Ground Combat Systems, should require that
                                                           the Stryker inventory be delivered and accepted
Our review of 21 high-dollar parts, valued at              on a contract line item, properly valued,
$85.1 million, showed that 16 parts had excess             recorded in an Army property accountability
Stryker inventory of $72.7 million that could be           system, and stratified and classified in the
either disposed of ($58.0 million) or potentially          proper logistics and financial accounts. Also,
used on other contracts ($14.7 million). General           the Program Executive Officer, Ground Combat
Dynamics initiated action to dispose of different          Systems, should require the PMO Stryker to
obsolete parts identified during our review.               implement a comprehensive inventory
                                                           management improvement plan that addresses
During our visit to the GOCO warehouse in                  overforecasting, total asset visibility, excess
Auburn, Washington, we identified 170 empty                inventory and economic retention requirements,
engine containers (part 10650112), valued at               and aggressive potential reutilization and
$1.1 million, purchased to store an engine that            disposal reviews.
was no longer being procured. General
Dynamics determined that the empty containers              Further, the Assistant Secretary of the Army
could be used to store a newer engine, thereby             (Acquisition, Logistics, and Technology)
reducing future requirements. (See Appendix F              [ASA(ALT)], with support from the Assistant
for details on potential monetary benefits.)               Secretary of the Army (Financial Management
                                                           and Comptroller) [ASA(FM&C)], needs to
     Figure 1. Excess Engine Container                     establish a multifunctional support team to work
                                                           with PMO Stryker to ensure that Stryker
                                                           inventory has been assigned a value and
                                                           recorded in appropriate Army property
                                                           accountability and financial accounting systems.

                                                           Management Comments and
                                                           Our Response
                                                           Management comments were responsive to the
                                                           recommendations, and management was taking
                                                           action to address Stryker inventory acceptance,
        Source: Photograph Provided by PMO Stryker.        accountability, and financial reporting issues.
                                                           The Director, DPAP, planned to issue guidance
What We Recommend                                          during the second quarter of FY 2013 that
Among other recommendations, the Director,                 clarifies the property accountability and
Defense Procurement and Acquisition Policy                 financial valuation requirements for inventory
(DPAP) working with the Assistant Secretary of             that was not consumed during the period of
Defense for Logistics and Materiel Readiness,              performance on logistics services contracts.
needs to issue additional guidance that clarifies          Additionally, ASA(ALT), with support from
the proper use of CAP business rules                       ASA(FM&C), established a multifunctional
specifically for logistics services contracts with         support team to assist PMO Stryker in properly
no end item deliverables and how to properly               valuing and recording Stryker inventory. See
account for inventory on these contracts that is           the Recommendations Table on the next page.

                                                      ii
Report No. DODIG-2013-025 (Project No. D2011-D000CH-0032.001)            November 30, 2012



   Recommendations Table
                Management                     Recommendations      No Additional
                                              Requiring Comment   Comments Required
   Director, Defense Procurement and
                                                                              1
   Acquisition Policy
   Assistant Secretary of the Army
                                                                              4
   (Acquisition, Logistics, and Technology)
   Assistant Secretary of the Army
                                                                              4
   (Financial Management and Comptroller)
   Program Executive Officer, Ground                               2.a, 2.b, 2.c, 2.d, 2.e,
   Combat Systems                                                 2.f, 2.g, 2.h, 3, 5.a, and
                                                                              5.b




                                              iii
Table of Contents
Introduction                                                                    1

      Objectives                                                                1
      Background                                                                1
      Review of Internal Controls                                               6

Finding. Inadequate Controls Over Contractor-Managed Government Property 7

      Stryker Inventory Was Not Assigned a Value and Recorded in Appropriate
          Army Accountability and Financial Accounting Systems                  8
      Stryker Inventory Was Incorrectly Classified as CAP                       9
      PMO Stryker Officials Did Not Comply With Multiple DoD and Army
          Property Regulations                                                 15
      PMO Stryker Officials Should Implement a Comprehensive Plan for
          Improving Inventory Management                                       20
      Obsolete and Excess Stryker Inventory for High-Dollar Review Parts       21
      Management Comments on the Finding and Our Response                      28
      Recommendations, Management Comments, and Our Response                   30

Appendixes

      A. Scope and Methodology                                                 35

               Interviews and Documentation                                    35
               Sample Selection                                                35
               Obsolete and Excess Inventory Analysis                          36
               Use of Computer-Processed Data                                  37
               Prior Coverage                                                  38

      B. DoD Guidance Memorandum on Contractor-Acquired Property               40
      C. Stryker Inventory Was Not Recorded or Assigned a Value in a DoD
            Accountability System                                              47
      D. Baseline Valuation for DoD Inventory and Operating Materials and
            Supplies                                                           48
      E. DoD OIG Classification of Stryker Inventory                           53
      F. Summary of Potential Monetary Benefits                                55

Management Comments

      Defense Procurement and Acquisition Policy                               56
      Department of the Army                                                   57
Introduction
Objectives
The overall objective of the audit was to evaluate the effectiveness of the contractor
logistics support (CLS) sustainment strategy for Stryker vehicles. Specifically, we
reviewed contract funding procedures, contract type, performance metrics, contractor
billings, and controls over Government property that is being managed by the contractor.
See Appendix A for a discussion of the scope and methodology and prior audit coverage.

This report is the second in a series of three reports and addresses controls over
Government property (Army-owned Stryker inventory). The first report,
DODIG-2012-102, “Better Cost-Control Measures Are Needed on the Army’s Cost-
Reimbursable Services Contract for Logistics Support of Stryker Vehicles,”
June 18, 2012, addressed contract type and performance metrics. The third report will
address contractor billings.

We performed this audit pursuant to Public Law 110-417, “Duncan Hunter National
Defense Authorization Act for Fiscal Year 2009,” Section 852, “Comprehensive Audit of
Spare Parts Purchases and Depot Overhaul and Maintenance of Equipment for
Operations in Iraq and Afghanistan,” October 14, 2008. Section 852 requires:

                  thorough audits to identify potential waste, fraud, and abuse in the
                  performance of the following: (1) Department of Defense contracts,
                  subcontracts, and task and delivery orders for—(A) depot overhaul and
                  maintenance of equipment for the military in Iraq and Afghanistan; and
                  (B) spare parts for military equipment used in Iraq and Afghanistan.

Background
U.S. Army TACOM Life Cycle Management Command
The U.S. Army TACOM 1 Life Cycle Management Command is headquartered in
Warren, Michigan, and is a major subordinate command of the U.S. Army Materiel
Command. According to the Army Web site, 2 the Life Cycle Management Command is
a collaborative organization whose mission is to develop, acquire, field, and sustain
soldier and ground systems for the warfighter through the integration of effective and
timely acquisition, logistics, and cutting-edge technology. The Life Cycle Management
Command facilitates partnerships between the Army Contracting Command and the
colocated Program Executive Offices so that they can cooperatively provide the full
range of life-cycle management services for the weapon systems that they support.



1
    TACOM was formerly known as the Tank-automotive and Armaments Command.
2
    The Web site source is http://www.tacom.army.mil/main/index.html.



                                                    1
Army Contracting Command
The Army Contracting Command-Warren, Michigan, previously referred to as TACOM
Contracting Center, is at the TACOM Life Cycle Management Command. The
contracting command is responsible for acquisition support and contracting for many of
the Army’s major weapon systems. The full range of services includes acquisition,
fielding, contracting, business advisory, production support, and sustainment of TACOM
Life Cycle Management Command systems.

Assistant Secretary of the Army (Financial Management
and Comptroller)
The Assistant Secretary of the Army (Financial Management and Comptroller)
[ASA(FM&C)], according to its Web site, 3 is responsible for formulating, submitting,
and defending the Army’s budget to Congress and the American people and for
overseeing the proper and effective use of the appropriated resources to accomplish the
Army’s assigned missions. ASA(FM&C) prepares and distributes both the Army
Working Capital Fund and the Operation and Maintenance budgets. ASA(FM&C) also is
responsible for preparing the Army’s financial statements and ensuring that the Army is
working toward obtaining auditable financial statements.

Project Management Office Stryker Brigade Combat Team
The Project Management Office, Stryker Brigade Combat Team (PMO Stryker), is a
subsidiary office of the Program Executive Office, Ground Combat Systems, which is
under the command of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) [ASA(ALT)]. According to the Army Web site, 4 the mission of the PMO
Stryker is to provide proven superior acquisition, development, and sustainment of the
Stryker family of vehicles that afford the warfighter quick-response maneuvering,
enhanced survivability and lethality, expanded fight versatility, and proven tactical
agility.

General Dynamics Land Systems
General Dynamics Land Systems (General Dynamics), according to its Web site, 5 is an
international Defense contractor that offers a wide array of land and amphibious combat
systems, subsystems, and components. General Dynamics produced the first Stryker
vehicles in 2002. In addition to the Stryker, General Dynamics developed a variety of
other combat vehicles, such as the Light-Armored Vehicle, M1 Abrams tank, Fox
vehicle, Mine-Resistant Ambush-Protected vehicle, and Expeditionary Fighting vehicle.




3
  The Web site source is http://www.asafm.army.mil.
4
  The Web site source is http://www.peogcs.army.mil/sbct.html.
5
  The Web site source is http://www.gdls.com.



                                                   2
The Stryker Family of Vehicles
The Stryker family of vehicles is a 19-ton, 8-wheeled, armored vehicle platform
composed of 17 configurations (10 basic and 7 double-v hull configurations). The
overall mission of the Stryker, originally named the “Interim Armored Vehicle,” is to
enable soldiers to maneuver more easily in close quarters and urban terrain while
providing protection in the open terrain. The Stryker family of vehicles consists of the:

    1. Infantry Carrier Vehicle (see                      8. Anti-Tank Guided Missile
       Figure 2)*                                             Vehicle*
    2. Reconnaissance Vehicle                             9. Nuclear, Biological, Chemical,
    3. Mortar Carrier Vehicle*                                Reconnaissance Vehicle
    4. Commander’s Vehicle*                               10. Mobile Gun System Vehicle
    5. Fire Support Vehicle*
    6. Engineer Squad Vehicle*                                *Vehicle also has a double-v hull
    7. Medical Evacuation Vehicle*                            configuration.


                      Figure 2. Stryker “Infantry Carrier Vehicle”




Source: www.sbct.army.mil.

The Stryker family of vehicles acquisition plan states that:

                Comprehensive Contractor Logistics Support (CLS) is executed under
                a performance based contract supporting both garrison and deployment
                vehicles. The contractor is co-located with the units and provides
                National level maintenance and assists with field level maintenance.
                They [General Dynamics] request, receive, store and issue all CLS
                items as well as document part consumption and vehicles repairs.
                The contractor performs all scheduled services as well [as] repair
                services for all components or assemblies with the exception of defined
                Government Furnished items. CLS supports vehicles at all locations.
                Under CLS, GDLS [General Dynamics Land Systems] maintains the
                Stryker vehicles to a “fully mission capable” status. [emphasis added]

                                                   3
PMO Stryker Explanation of Operational Complexities
The Stryker family of vehicles acquisition program began before the events that would
lead us to war in Iraq and Afghanistan. As a part of acquisition reform, the Stryker
vehicle was a nondevelopmental item, lending itself to a performance-based
logistics approach through the use of CLS because the technical data for the vehicle were
not readily available. PMO Stryker stated that the pace of acquisition became an
extremely rapid effort that took 31 months from contract award to the initial operational
deployment in Iraq.

In addition to the rapid effort, the Army’s deployment needs created complexities
requiring concurrent development and production of a common chassis for the 10 original
Stryker variants before completion of production verification testing. Additionally, the
program had little operational tempo data from garrison deployments that could be used
to identify performance-based logistics metrics for deployment, as well as the first
brigade deployment to Iraq, which included CLS, that was in October 2003. This
escalated to three Stryker brigades deployed to Iraq in 2006, that required sustainment for
2 years. As brigades were eventually redeploying from Iraq, other brigades were
deploying to Afghanistan. The Stryker brigades were now spread across two operational
theaters with differing environments, operational tempos, and threats.

Metrics gathered from one theater were not applicable to the new theater. The new threat
in Afghanistan led to an urgent requirement to change the design of the flat-bottom
Stryker vehicles to a more survivable double-v hull model. Design, test, production, and
fielding were accelerated to get this new design into the hands of the soldier within
18 months. This added another new complexity to fleet support as both flat-bottom and
double-v hull vehicles required support. The Army deployed a second Stryker brigade to
Afghanistan, requiring additional CLS support. The double-v hull vehicles increased the
variants to 17, which caused additional development, production, and sustainment
complexities. The deployed fleet increased operational miles 10-fold from when fleets
were in garrison/peacetime deployment. The operational environment, tempo, objectives,
deployment, and utilization plans were all fluid as the threat would change in theater,
creating a higher level of complexity for identifying performance-based logistics metrics.

A total of 17 Stryker Brigade Combat Teams were deployed across both theaters and
accumulated an estimated 40 million miles. In addition, 80 brigade vehicles were lost in
battle, 463 vehicles were damaged, and 3,464 vehicles were reset. Numerous retrofit
applicable engineering change proposals and engineering change orders were developed
since 2005, and 320 kits were developed or fielded to primarily address survivability
issues in both Iraq and Afghanistan. As expected, the increased weight of these kits
increased the failure rates of various drive-train and suspension components. Theater
repair sites could not keep up with the volume of components requiring repair, so
increased quantities of configuration spares were procured to meet operational vehicle
readiness requirements. When newly designed/improved components were successfully
tested and validated, they were incorporated into the supply system, either immediately
replacing an existing part or replacing the part once it was totally depleted from the
supply system, depending on the nature of the required design improvement.

                                            4
Stryker/General Dynamics CLS Contracts
On December 21, 2006, the Army Contracting Command-Warren officials awarded
General Dynamics a 6-year (base year and 5 option years), cost-plus-fixed-fee, CLS
contract. As of March 2012, the contract was funded for about $1.5 billion, 6 including
fees or profit of $133.2 million (contract W56HZV-07-D-M112 delivery orders 0019,
0169, and 0269). As described in the acquisition plan, General Dynamics is responsible
for performing scheduled and unscheduled maintenance; requesting, receiving, storing,
and issuing all Stryker vehicle spares and repair parts; and documenting all part
consumption and vehicle repairs. General Dynamics provides CLS to maintain all
Stryker garrison and deployment 7 vehicles at a fully mission-capable status. PMO
Stryker entered into the contract with General Dynamics with a singular focus to achieve
an operational readiness rate goal of 90 percent and actually achieved a readiness rate in
excess of 96 percent. A follow-on Stryker logistics support contract is scheduled to be
awarded in June 2013.

General Dynamics Manages the GOCO Facility Where Stryker
Inventory Was Stored
General Dynamics has responsibility for managing both the wholesale and retail Stryker
inventory. Wholesale distribution locations maintain bulk quantities of spare and repair
parts, and the retail distribution locations store smaller quantities and provide the parts
directly to the end users who maintain the vehicles. The principal wholesale distribution
location is a Government-owned, contractor-operated (GOCO) warehouse in Auburn,
Washington. The warehouse has about 700,000 square feet of internal storage space and
30,000 square feet of external storage space. General Dynamics’ personnel receive,
store, manage, and issue Stryker inventory for a variety of Stryker efforts, including CLS,
battle damage assessments and repairs (BDAR), Reset, and retrofit. 8 For purposes of this
report, the Stryker inventory values, quantities, and demand information will incorporate
data from the CLS, BDAR, and Reset efforts because the inventory for these three efforts
are comingled and could be used interchangeably to fulfill requirements for any of the
efforts as needed.

Figure 3 shows the inside of the GOCO warehouse in Auburn and the commander’s seats
(part LS1009617) that were stored in the warehouse.




6
  Contract value of $1.523 billion includes only CLS contract line items of more than $40 million.
7
  “Garrison” describes Stryker vehicles stationed at a permanent military post. “Deployment” describes
Stryker vehicles that are deployed in theater to support a military operation.
8
  Reset efforts are performed on Stryker vehicles returning from Iraq and Afghanistan to bring the vehicles
back to a fully mission-capable condition. Retrofit efforts are also performed to add new part requirements
to a Stryker vehicle that were not part of the original production requirements.



                                                     5
                Figure 3. Interior of the GOCO Warehouse in Auburn




   Source: Photograph provided by PMO Stryker.

General Dynamics also managed two other Stryker inventory wholesale warehouses at its
London, Ontario Canada, facility and the GOCO European Distribution Center in
Germersheim, Germany. The retail locations for the Stryker inventory are geographically
dispersed to support Stryker mission requirements around the world.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for ASA(ALT) and PMO Stryker officials. Specifically, PMO Stryker
officials did not treat the Army-owned Stryker inventory as Government property, and as
a result, the Stryker inventory was not properly valued and recorded in appropriate Army
property accountability and financial accounting systems. Also, PMO Stryker officials
did not implement a comprehensive inventory management improvement plan that
complied with the DoD comprehensive plan for inventory management as required by
Public Law 111-84, “National Defense Authorization Act for FY 2010,” Section 328,
“Improvement of Inventory Management Practices,” October 28, 2009. We will provide
a copy of the report to the senior Army officials responsible for internal controls.




                                                 6
Finding. Inadequate Controls Over
Contractor-Managed Government Property
PMO Stryker officials did not properly account for Government property procured on the
cost-reimbursable services contract for logistics support of Stryker vehicles. We
identified 19,365 different items of Stryker inventory (spare and repair parts) managed by
General Dynamics, primarily at a GOCO warehouse, that had not been assigned a value
and recorded in appropriate Army property accountability and financial accounting
systems. At our request, General Dynamics assigned a value to the Stryker inventory of
about $892.3 million. Stryker inventory was not properly accounted for because PMO
Stryker inappropriately treated the inventory as contractor-acquired property (CAP),
while General Dynamics considered the inventory as Government property, not CAP,
once delivered to the GOCO warehouse. Consequently, neither PMO Stryker nor
General Dynamics accounted for the Stryker inventory in appropriate property
management systems. CAP business rules for cost-reimbursable contracts were generally
designed to address “property acquired, fabricated, or otherwise provided by the
contractor” that would eventually be delivered to the Government as part of a higher
level end item, not as used by the Army on its logistics services contract with no end item
deliverable. While Stryker inventory consumed during the contract period of
performance for the logistics services contract could possibly be considered CAP, the
inventory identified in this report had accumulated over many contract years and different
periods of performance and needed to be officially delivered and accepted by the Army
and accounted for as Government property. As a result of incorrectly classifying Stryker
inventory as CAP, PMO Stryker did not:
    •   comply with multiple DoD and Army property regulations designed to provide
        good stewardship and fiduciary responsibility over Government property, support
        the Army goal of creating auditable financial statements, and correctly use the
        Army’s system designed to integrate logistics and financial operations; and
    •   implement a comprehensive inventory management improvement plan that
        addressed overforecasting, total asset visibility, excess inventory and economic
        retention requirements, and aggressive potential reutilization and disposal
        reviews to meet the intent of Public Law 111-84, “National Defense
        Authorization Act for FY 2010,” Section 328, “Improvement of Inventory
        Management Practices,” October 28, 2009.

We reviewed 21 high-dollar parts, valued at $85.1 million, and found 16 parts had excess
Stryker inventory of $72.7 million that could be either disposed of ($58.0 million) or
potentially used on other contracts ($14.7 million). For example, we found 170 empty
engine containers, valued at $1.1 million, that General Dynamics determined could be
used to store a different engine, thereby reducing future costs. General Dynamics also
initiated action to dispose of four different obsolete parts identified during our review.




                                            7
Stryker Inventory Was Not Assigned a Value and
Recorded in Appropriate Army Accountability and
Financial Accounting Systems
We identified 19,365 different items of Army-owned Stryker inventory (spare and repair
parts) being managed by General Dynamics, primarily at a GOCO warehouse in Auburn
that were not assigned a value and recorded in appropriate Army property accountability
and financial accounting systems. At our request, General Dynamics used several
sources to assign a value of about $892.3 million to 16,344 parts ($676.2 million related
to CLS Stryker inventory and $216.1 million related to Reset, BDAR, and Retrofit
efforts) but was unable to determine a value for the remaining 3,021 parts for various
reasons. General Dynamics also provided the following disclaimer to the assigned
inventory value.

                 DISCLAIMER: The information contained in this document has been
                 prepared solely for information purposes in response to specific DOD
                 Inspector General requests regarding existing government owned
                 inventory. The information as presented herein is not an official
                 record or deliverable of General Dynamics or any of its subsidiaries
                 and should not be relied upon for any decision, analysis or evaluation
                 regarding government owned inventory valuation. The data herein
                 has not been verified or validated for accuracy, particularly with
                 respect to dollar valuations. [emphasis added]

Table 1 shows a breakdown of the Stryker inventory that was not recorded or assigned a
value in an Army property accountability system.

  Table 1. Stryker Inventory Valued by General Dynamics (as of January 30, 2012)
                                          Number of                Total                  Dollar
            Description                 Different Items            Parts                  Value
Wholesale
  Garrison- Auburn                                  3,525             219,684                $39,926,300
  Deployment-Auburn                                13,695           6,233,794                425,574,909
  BDAR-Auburn                                       7,279           4,062,424                 43,977,586
  Reset-Auburn                                      8,129           2,600,444                 93,607,969
  Retrofit-Auburn                                       852           802,916                 18,657,186
    Subtotal (Auburn Warehouse)                                    13,919,262               $621,743,950
  London Warehouse                                      156             7,484                  2,515,651
  European Distribution Center                      1,593              47,806                 57,809,672
  Total Wholesale Inventory                                        13,974,552               $682,069,273
Retail Inventory                                    7,566             496,578                210,224,417
     Subtotal Inventory*                           16,344          14,471,130               $892,293,690
Inventory without an assigned value                 3,021             436,054
Total Inventory*                                      19,365     14,907,184                 $892,293,690
Note: Because of rounding, the dollar value in columns may not sum.
*
  The total represents the number of different parts.


                                                    8
According to General Dynamics contracting officials, General Dynamics managed
Stryker inventory in its Oracle system; however, it did not assign the inventory a value in
its system or report the inventory on its financial statements because it considered the
                                                  Stryker inventory to be Government
       General Dynamics managed Stryker           property. Therefore, General Dynamics
    inventory in its Oracle system; however,      did not account for the Stryker inventory
    it did not assign the inventory a value in    according to Federal Acquisition
     its system or report the inventory on its    Regulation (FAR) Government property
          financial statements because it         guidance for CAP. Specifically,
         considered the Stryker inventory         FAR 52.245-1, “Government Property,”
            to be Government property.            requires that the contractor create and
                                                  maintain records of all Government
property accountable to the contract, including Government-furnished property and CAP,
and requires accounting for the quantity received, issued, balance on hand, and unit
acquisition cost.

Stryker Inventory Was Incorrectly Classified as CAP
While General Dynamics officials classified Stryker inventory delivered to the GOCO
warehouse as Government property, PMO Stryker officials incorrectly classified the
inventory as CAP. Consequently, the Stryker inventory was not reported on either the
contractor’s or the Army’s financial statements, resulting in no visibility of the Army
assets (parts and value). PMO Stryker relied on the CAP definition in FAR Part 45,
“Government Property,” which defines CAP as “property acquired, fabricated, or
otherwise provided by the contractor for performing a contract to which the Government
has title.” CAP business rules for cost-reimbursable contracts were generally designed to
address “property acquired, fabricated, or otherwise provided by the contractor” that
would eventually be delivered to the Government as part of a higher level end item, not
as used by the Army on its logistics services contract with no end item deliverable.
While Stryker inventory consumed during the contract period of performance for the
logistics services contract could possibly be considered CAP, the inventory identified in
this report was from prior-year periods and needed to be officially delivered and accepted
by the Army and accounted for as Government property. In regards to BDAR and Reset
efforts, the situation was basically the same because both efforts had specific periods of
performance so inventory not consumed during periods of performance needed to be
officially delivered and accepted by the Army and accounted for as Government
property.

CAP business rules were established to prevent an inefficient practice of recording CAP
on DoD accountability records when it was acquired by the contractor and then recording
                                              the end item on DoD accountability
   CAP business rules were established to     records once it was delivered, which
       prevent duplicate accountability       would result in duplicate accountability
        records, not to prevent proper        records. The CAP business rules were
   accountability of Government property.     established to prevent duplicate
                                              accountability records, not to prevent
proper accountability of Government property. By classifying the Stryker inventory as

                                             9
CAP, PMO Stryker officials were able to bypass the accountability and financial
reporting requirements for Government property after the Stryker inventory was
delivered to the GOCO warehouse.

Stryker inventory consists of spare parts that General Dynamics procured from its
vendors, which were delivered directly to the GOCO warehouse and material or parts that
were used to manufacture higher level assembly parts that were then delivered to the
GOCO warehouse. For example, the commander’s seat assembly consisted of several
brackets, a seat guard, and a seat that were assembled by General Dynamics and
delivered to the GOCO warehouse.

DoD Guidance on CAP
In December 2007, the Under Secretary of Defense for Acquisition, Technology, and
Logistics (USD[AT&L]) and Under Secretary of Defense (Comptroller) [USD(C)]
                                         developed guidance to address questions and
    Upon delivery to the Government,     issues being raised by DoD Components
   contractor acquired property should   regarding financial accounting and property
     be recorded in the appropriate      accountability of CAP. The joint
     property accountability system.     USD(AT&L) and USD(C) memorandum,
                                         “Military Equipment Valuation Contractor
Acquired Property Business Rule,” December 22, 2007, states that:

              . . . . while title passes to DoD when the property is obtained by the
              contractor, the property will not be recorded on DoD financial
              statements (as other than construction in process) or in accountability
              systems until the property is delivered to DoD. . . .

              The purpose of this paper is to provide the requirements for accounting
              for Contractor Acquired Property (CAP) in accordance with the
              provisions of Statement of Federal Financial Accounting Standards
              (SFFAS) No. 6, Accounting for Property, Plant, and Equipment. . . .

              Statement of Federal Financial Accounting Standards (SFFAS) No.6,
              Accounting for Property, Plant, and Equipment, requires that Property,
              Plant and Equipment (PP&E) shall be recognized when title passes to
              the acquiring entity or when the PP&E is delivered to the entity or to an
              agent of the entity. In the case of constructed PP&E, the PP&E shall be
              recorded as construction-in-progress until it is placed in service, at
              which time the balance shall be transferred to general PP&E. . . .

              DoD policies, processes, and practices are structured on delivery,
              receipt, and acceptance of property. . . Although the DoD may have
              title to some property, e.g., property acquired, fabricated or otherwise
              provided by the contractor for performing a contract, such property
              has not yet been delivered. . . .

              Upon delivery to the Government, contractor acquired property
              should be recorded in the appropriate property accountability
              system. [emphasis added]




                                                 10
Additionally, in a subsequent USD(AT&L) memorandum, “Contractor Acquired
Property (CAP) Under Cost Reimbursement Contracts and Line Items,”
January 11, 2010, the Director, Defense Procurement and Acquisition Policy (DPAP),
issued more guidance to clarify business rules for CAP.

                   Historically, some DoD Components sought to establish accountable
                   property records for CAP – an inefficient practice that resulted in
                   duplicate accountability records. In a joint memorandum entitled
                   “Military Equipment Valuation Contractor Acquired Policy Business
                   Rule,” dated December 22, 2007, the Office of the Under Secretary of
                   Defense (Comptroller) and Under Secretary of Defense (Acquisition,
                   Technology & Logistics) clarified the Department’s policy (attached).
                   The business rule states that although title passes to DoD when the
                   property is obtained by the contractor, the property will not be
                   recorded on DoD financial statements (as other than construction
                   in process) or in accountability systems until the property is
                   delivered to DoD.

                   Given the many on-going audits and Congressional interest in
                   Government Property, it is imperative that DoD Components
                   understand the business rules for CAP, as well as the aforementioned
                   change in accountability and financial record keeping, and that they
                   ensure that accountable property records are established for CAP
                   only upon delivery to the Government on a contract line item
                   number (CLIN). [emphasis added]

Appendix B provides the complete USD(AT&L) and USD(C) memoranda.

PMO Stryker Inappropriately Applied DoD Guidance on CAP
PMO Stryker inappropriately applied the USD(AT&L) memorandum on CAP business
rules and, therefore, did not establish adequate controls over Government property on the
Stryker CLS contract. We asked the former Deputy Project Manager for Stryker 9 who
owned the inventory at the Auburn warehouse. The former Deputy Project Manager
replied in a letter to us, dated February 18, 2011, that “. . . material that is used in the
performance of CLS is treated as Contractor Acquired Property.” The former Deputy
Project Manager also stated that the Stryker inventory was considered CAP until the
inventory was placed on a Stryker vehicle; the position was reiterated by the Defense
Contract Management Agency (DCMA). 10 Specifically, in response to our statement that
a Government official was not accepting inventory at the Auburn warehouse, a Lead
Program Integrator for Team Stryker, DCMA, stated in an e-mail, dated March 15, 2011,
that:

                   There are NOT approximately 15,000 line items in the CLS contract.
                   There are no individual piece parts in the CLS contract (perhaps less
                   [than] a dozen). And the Government did not purchase 15,000 piece



9
    The former Deputy Project Manager for Stryker was reassigned in August 2011.
10
     The Stryker CLS contract is administered by DCMA.



                                                     11
               parts between 2006 and 2013. . .We have not purchased parts, nor a
               stockpile of parts, nor a warehouse to store them in. . .Technically,
               when a cost voucher is paid the material belongs to the
               Government, but under the CAP program (AT&L Memo dated
               January 11, 2010) the Government takes delivery of these parts
               when we take delivery of the vehicles. We have never taken
               delivery of the parts in the warehouse-the CLS contract does not
               require a DD-250. [emphasis added]

However, the Stryker inventory stored at the GOCO warehouse does not support the
production of Stryker vehicles that are later delivered to the Army and accepted by
DCMA. Instead, the Stryker inventory consists of spare parts that are used to sustain
fielded Stryker vehicles for which the Army had already taken delivery. Therefore, based
on the interpretation of the CAP guidance by PMO Stryker and DCMA officials, the
Army will never take delivery of the Stryker inventory, assign the inventory a value,
record it in an appropriate Army property accountability system, and recognize the
inventory on the Army’s financial statements. See Appendix C for the process being
used by the Stryker CLS program to account for Stryker inventory being procured on the
cost-reimbursable services contract.

PMO Stryker Did Not Follow CAP Guidance and Accept Delivery
or Transfer Excess Material Costs to Follow-On Contracts
Although PMO Stryker and Army Contracting Command officials classified the Stryker
inventory as CAP, the officials did not require General Dynamics to account for the
                                              inventory as CAP, follow guidance and
       When excess CAP on the losing          accept delivery of CAP by contract line item
     contract is required on a follow-on      where the material then becomes
       contract, then the inventory cost      Government property, or identify the actual
       should be reduced on the losing        cost of the CAP inventory acquired on
      contract and added on the gaining       previous contracts and transfer the inventory
                   contract.                  cost to the current Stryker CLS contract.
        [DFARS PGI 245.402-70(6)]             Defense Federal Acquisition Regulation
                                              Supplement, Procedures, Guidance, and
Information (DFARS PGI) 245.4, “Title to Government Property,” states that when
excess CAP on the losing contract is required on a follow-on contract, then the inventory
cost should be reduced on the losing contract and added on the gaining contract.
DFARS PGI 245.402-70, “Policy,” states:

               (1) Title vests in the Government for all property acquired or fabricated
               by the contractor in accordance with specific requirements for passage
               of title in the contract. Oversight and visibility of this Government
               property, therefore, is limited to reviews and audits of contractor
               accounting and property management systems. Ad-hoc contractor
               generated reports of contractor-acquired property used by government
               personnel for “property accountability” can result in duplicate
               accountability records, inefficient operations, and increased program
               costs, and are discouraged.




                                                  12
               (2) Contractor-acquired property items not anticipated at time of
               contract award, or not otherwise specified for delivery on an
               existing line item, shall be delivered to the Government on a
               contract line item. The value of that item shall be recorded at the
               original purchase cost or best estimate. Unless otherwise noted by the
               contractor at the time of delivery to the Government, the placed-in-
               service date shall be the date of acquisition or completed manufacture,
               if fabricated.

               (3) Upon delivery and acceptance by the Government of
               contractor-acquired property items, and when retained by the
               contractor for continued use under a successor contract, these
               items become Government-furnished property (GFP). The items
               shall be added to the successor contract as GFP by contract
               modification.

               (4) Individual contractor-acquired property items should be
               recorded in the contractor’s property management system at the
               contractor’s original purchase cost or best estimate.

               (5) Financial/accounting treatment shall be in accordance with DoD
               Financial Management Regulations, DoD 7000.14-R, volume 4,
               chapter 6.

               (6) To the extent that contractor-acquired material that is excess to
               the needs of the accountable contract is required on follow-on or
               other contracts, the costs of such property shall be credited to the
               losing contract; the gaining contract shall be debited accordingly.
               This supports the FAR 31.205-26 policy that material costs should be
               borne by the contract that consumes material when materials are
               required for specific contracts. This also complies with the
               requirements of DFARS clause 252.242-7004, Material Management
               Accounting Systems, requiring a material management and accounting
               system. This process applies only to contractor-acquired material. It
               does not apply to other contractor-acquired property, i.e., equipment,
               special tooling or special test equipment, or GFP.

               (7) Contractor “credit-debit” systems and material management
               accounting systems do not involve or require contractual modifications
               for the transfer of material by credit as they are internal contractor
               accounting transactions. However, such systems should be reviewed
               for efficacy and efficiency by the DoD component responsible for
               contract administration. [emphasis added]

PMO Stryker personnel never accepted delivery or planned to accept delivery of the CAP
inventory on a contract line item nor did they transfer the costs of the inventory to the
gaining contracts and credited or reduced costs on the losing contracts (although
transferring costs from contract to contract at this point is probably not feasible due to the
substantial cost of the Stryker inventory accumulated over many contract years). After
extensive discussions with PMO Stryker officials, we were unable to reach agreement
that the Stryker inventory was not CAP and should be treated as Government property
managed and recorded in appropriate Army accountability and financial accounting
systems.


                                                 13
Clarification Needed on the CAP Business Rules for Logistics
Services Contracts
CAP can be material not intended to be incorporated into a higher level end item. It can
also be material used in the performance of services. However, the CAP business rules
for cost-reimbursable contracts were generally designed to address “property acquired,
fabricated, or otherwise provided by the contractor” that would eventually be delivered
to the Government as part of a higher level end item, not for logistics services contracts
that provide only the service as a deliverable.

In July and August 2012, we met with senior officials responsible for Government
property and CAP policy from the Assistant Secretary of Defense for Logistics and
Material Readiness and the DPAP and Acquisition Resources, and Analysis directorates
within USD(AT&L). Representatives from the ASA(FM&C), PMO Stryker, Army
Contracting Command-Warren, and U.S. Army TACOM Life Cycle Management
Command Legal office were also present to discuss the proper classification of the
Stryker inventory.

The DoD CAP and Government property policy experts stated that inventory procured on
the cost-reimbursable logistics services contract and consumed during the contract period
of performance may be considered CAP. However, inventory not consumed during the
period of performance and transferred to a new contract represented a delivery and
acceptance action, thereby changing the status from CAP to Government property.

Additionally, there could be instances where the CAP inventory does not become
Government property if the contractor bought back the CAP or the Army transferred the
costs of the CAP to a gaining contract with a credit to the losing contract. However,
these instances were not likely to occur on a logistics services contract because of the
large amount of CAP inventory that could be involved in performing the contract.

The Director, DPAP, working with the Assistant Secretary of Defense for Logistics and
Materiel Readiness, needs to issue additional guidance that further clarifies the proper use
of CAP business rules specifically for logistics services contracts with no end item
deliverables and how to properly account for and value the inventory on these contracts
that is not consumed during the contract period of performance.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to accept delivery of all CAP inventory that was not consumed during
the contract period of performance on a contract line item in accordance with DFARS
PGI 245.402-70. Consequently, the Stryker inventory identified in this report will need
to be delivered and accepted as Government property before award of the follow-on
Stryker CLS contract scheduled in FY 2013.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to require General Dynamics to accept responsibility and create and
maintain appropriate accountability records in accordance with FAR 52.245-1 for any
inventory considered CAP. If General Dynamics is unwilling to accept responsibility for

                                            14
inventory delivered to the GOCO warehouse as CAP, then PMO Stryker must accept
delivery of the inventory as Government property.

PMO Stryker Officials Did Not Comply With Multiple DoD
and Army Property Regulations
PMO Stryker officials inappropriately categorized all Stryker inventory as CAP and did
not recognize the inventory at the GOCO warehouse as Government property, which
could include CAP, that was managed in the contractor’s inventory management system.
As a result, PMO Stryker officials did not comply with multiple DoD and Army property
regulations designed to provide good stewardship and fiduciary responsibility over
Government property and support the Army goal of creating auditable financial
statements. PMO Stryker officials also did not correctly use the Army’s Logistics
Modernization Program (LMP) system designed to integrate logistics and financial
operations. The guidance provides detailed procedures on how inventory should be
valued, accounted for, and reported in DoD and Army financial accounting systems.

DoD Financial Management Regulation (DoD FMR) 7000.14-R, Volume 4, “Accounting
Policy and Procedures,” Chapter 4, “Inventory and Related Property,” prescribes the
accounting policy and related requirements necessary to establish financial control over
DoD inventory and operating materials and supplies held for use or sale.

DoD Regulation 4140.1-R (DoD 4140.1-R), “DoD Supply Chain Materiel Management
Regulation,” May 23, 2003, provides detailed material management guidance that
promulgates best business practices and meets all material management statutory
requirements.

Army Regulation 735-5, “Policies and Procedures for Property Accountability,”
February, 28, 2005, identifies how Army property should be accounted for and who is
responsible for ensuring the property is properly used and cared for. It also requires
detailed accounting records and financial accounting records of Army property.
Chapter 2, “Property Accounting Requirements,” section I, “Basic Principles,” 2-2.c,
“Accounting for Army property,” states that:

              All property or material, except real and contractor-acquired property,
              acquired in any manner will be properly accounted for on item detail
              accounting records and financial (dollar) item accounting records.
              Responsibility will be fixed as prescribed by this regulation or other
              Army policy. The local commander may direct more stringent controls
              for expendable material.

Army Regulation 735-5, Chapter 10, “Loans, Bonding, and Other Accounting
Procedures,” Section II, “Other Accounting Procedures,” 10-5, “Financial Inventory
Accounting,” states that:

              A financial inventory accounting system will be established and
              maintained for inventories of Army material held on records of
              accountability within the Army supply system. It will be the formal


                                                15
               accounting system used to integrate the required quantitative and
               monetary accounting of Army property.

Stryker Inventory Needed to Be Properly Valued
PMO Stryker did not capitalize and properly value the Army-owned inventory being
managed by General Dynamics. By not properly valuing the Stryker inventory,
PMO Stryker did not comply with the DoD FMR 7000.14-R, volume 4, chapter 4, which
requires that inventory be valued at historical cost using a moving average cost.
USD(AT&L) and USD(C) issued a memorandum, “Baseline Valuation and Certification
for Department of Defense (DoD) Inventory and Operating Materials and Supplies,”
November 8, 2005, that outlines a 13-step approach for valuing inventory, including
establishing the baseline value for on-hand inventory if historical acquisition data were
not available. (See Appendix D for the complete memorandum.)

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to follow DoD guidance and develop procedures to properly value the
Stryker inventory.

Stryker Inventory Was Not Recorded in an Army Property
Accountability System
PMO Stryker did not properly record Army-owned inventory in an Army property
accountability system. As a result, PMO Stryker did not maintain detailed transaction
                                        histories related to the inventory, categorize the
     Government property should         inventory into proper logistics categories, validate
     be accounted for on property       inventory levels, and take appropriate action to
     accounting records until it is     dispose of excess or obsolete inventory in a timely
          either consumed or            manner. Both DoD 4140.1-R and Army
              disposed of.              Regulation 735-5 state that Government property
                                        should be accounted for on property accounting
records until it is either consumed or disposed of.

Specifically, DoD 4140.1-R states that property should be classified into four categories
to establish mechanisms for the proper retention, distribution, and disposal of the
property. Those four categories are:

   •   Approved Acquisition Objective–the quantity of an item authorized for peacetime
       and wartime requirements.

   •   Economic Retention Stock–stock above the approved acquisition objective that is
       more economical to retain than to dispose of.

   •   Contingency Retention Stock–stock above the approved acquisition objective and
       economic retention stock that is held to support specific contingencies.




                                                 16
   •   Potential Reutilization Stock–stock above the approved acquisition objective,
       economic retention stock, and contingency retention stock that should be
       reviewed for transfer to the Defense Reutilization and Marketing Group as soon
       as practicable.

Additionally, DoD 4140.1-R and Army Regulation 735-5 state that a detailed transaction
history is to be maintained, providing a complete audit trail of all transactions affecting
the total item property records for a minimum of 2 years. At a minimum, the accounting
records should include quantity on hand at wholesale storage activities, quantity on hand
at retail activities, condition, dollar value, quantity due-in, quantity in-transit to another
location, quantity in a repair facility, and whether the item is in the contractor’s custody.
Also, Army Regulation 735-5 states that accounting records should include any gains or
losses for an item.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to perform a thorough review of the Stryker inventory, record the
inventory in an Army property accountability system, and properly stratify the inventory
as approved acquisition objective, economic retention stock, contingency retention stock,
or potential reutilization stock.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to establish a detailed transaction history for the Stryker inventory that
records anticipated receipts of inventory as material due-ins, material received, or
material transferred out.

Stryker Inventory Needed to Be Recognized in Army Financial
Accounting Systems
PMO Stryker did not recognize Stryker inventory on the Army financial statements to
support the Army goal of creating auditable financial statements. Specifically, Stryker
inventory, valued at $892.3 million, was not recognized and properly valued in
appropriate inventory general ledger accounts or in any Army financial accounting
systems. DoD FMR 7000.14-R, volume 4, chapter 4, describes the different
U.S. Government Standard General Ledger (USSGL) accounts that should be used to
account for the types of inventory. Additionally, DoD FMR 7000.14-R, volume 4,
chapter 4, states that inventory included in the financial records should also be identified
in logistics records.




                                              17
Table 2 illustrates the relationship between the logistics inventory categories and the
USSGL accounts.

                      Table 2. Logistics Inventory Categories
                         Compared to USSGL Accounts
              Category                             Inventory Accounts
              Approved Acquisition Objective                     USSGL 1521

              Economic Retention Stock                           USSGL 1522

              Contingency Retention Stock                        USSGL 1522

              Potential Reutilization Stock (Excess)             USSGL 1524

DoD FMR 7000.14-R, volume 4, chapter 4, defines the USSGL accounts displayed in
Table 2 as:

   •   USSGL Account 1521 - inventory purchased for resale that is in usable condition
       and available for immediate resale.

   •   USSGL Account 1522 – inventory held in reserve for future sale.

   •   USSGL Account 1524 - inventory that exceeds the amount expected to be used
       for normal operations and does not meet the criteria to be held in reserve for
       future use.

Congress established an FY 2017 goal for DoD to have auditable financial statements in
Public Law 111-84, Section 1003, “Audit Readiness of Financial Statements of the
Department of Defense.” USD(C) assigned a high priority for the Departments to focus
on improving audit readiness on information essential to effectively manage DoD
mission-critical assets, which include operating inventory, so that DoD would achieve the
goal of auditable financial statements by FY 2017. The Army started to implement
several controls to guarantee compliance from all Army personnel whose work directly
impacts the financial statements. ASA(FM&C) stated in “FY 2011 Army Audit
Readiness Strategy” (undated) that:

               One important audit readiness concept the Army must understand
               is that the auditors will be looking for evidence or proof of how the
               Army conducts business to include obligations recorded are
               supported by sufficient documentation assets recorded in the
               Army’s property systems depict a complete and accurate picture of
               the Army’s physical inventory.

               For the Army to achieve its financial improvement goals, every person
               in the Army managing or executing resources must accept
               responsibility for sustaining an auditable business environment.
               [emphasis added]


                                                18
Additionally, the Secretary for the Army stated in a memorandum, “Army Audit
Readiness Efforts,” February 18, 2011, that:

              Army leaders shall be held accountable in their performance plans
              for transacting the Army’s business in an audit compliant manner.
              Specifically, financial, logistics, facilities, human resources,
              contracting, and other personnel will be held accountable for
              ensuring management controls and business processes comply with
              financial audit standards. [emphasis added]

PMO Stryker should recognize, value, and classify the Stryker inventory in the
appropriate USSGL accounts to make certain the inventory is reported in the Army and
DoD financial statements and to support the Army’s goal to have auditable financial
statements to comply with Public Law 111-84, section 1003.

The Program Executive Officer, Ground Combat Systems, needs to develop performance
standards for appropriate PMO Stryker personnel that address proper accountability and
financial controls over all Government property.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to report the Stryker inventory on Army financial statements in the
appropriate general ledger accounts.

Logistics Modernization Program Was Not Used
In February 1998, the Army began to replace its existing material management systems
with the LMP system, at a cost of over $1 billion. As of April 2011, LMP was fully
implemented in the Army Materiel Command community and fielded to approximately
25,000 users at more than 50 Army and DoD locations and interfaced with more than
70 different DoD systems. LMP manages approximately $22 billion in inventory with
tens of thousands of contractors. The system is among the world’s largest fully
integrated supply chain demand planning and execution solutions. Additionally, LMP
integrates financial and logistics operations into one system.

As of August 2012, the Army did not have visibility over the $892.3 million of Stryker
inventory (parts and value). Starting in October 2011, a portion of the Stryker inventory
was being tracked by quantity within LMP; however, it was not valued in the system.
Additionally, in October 2011, the Army started charging the Stryker brigades for parts
issued from inventory that were previously purchased with Stryker brigade Operation and
Maintenance or Procurement funds. Even though the inventory was loaded in LMP at no
value, the Stryker brigades were charged a price that was determined by PMO Stryker,
using pricing data from the contract data requirement lists provided by General
Dynamics. In October 2011, PMO Stryker began using Army Working Capital Funding
to purchase inventory to backfill the inventory that had been ordered from LMP. The
inventory bought with Army Working Capital Funding was also recorded in LMP at no
value.



                                             19
Although a portion of the Stryker inventory was recorded in LMP, it was still not
properly valued, and therefore, PMO Stryker was not in compliance with
DoD FMR 7000.14-R, volume 4, chapter 4, which requires that inventory be valued at
historical cost using a moving average cost. The USD(AT&L) and USD(C)
memorandum, “Baseline Valuation and Certification for Department of Defense (DoD)
Inventory and Operating Materials and Supplies,” November 8, 2005, provides best
practices for valuing inventory that PMO Stryker could use to value the Stryker
inventory. A multifunctional support team is needed with the necessary knowledge,
technical expertise, and credibility to support PMO Stryker to properly value and input
Stryker inventory into LMP so the Stryker brigades are correctly charged.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to accept delivery of Stryker inventory as Government property and
value the inventory in LMP before parts are requisitioned and charged to the Stryker
brigades.

ASA(ALT), with support from ASA(FM&C), needs to establish a multifunctional
support team with necessary knowledge, technical expertise, and creditability to properly
account for the Government property procured on the cost-reimbursable services contract
for Stryker vehicles. This team should work with PMO Stryker personnel to ensure that
Stryker inventory has been assigned a value and recorded in appropriate Army property
accountability and financial accounting systems.

PMO Stryker Officials Should Implement a
Comprehensive Plan for Improving Inventory
Management
Public Law 111-84, section 328, requires DoD to develop a plan to provide for total asset
visibility. Specifically, the Secretary of Defense is to develop a comprehensive plan for
improving the inventory management systems of the military, with the goal of reducing
acquisition and storage of excess secondary inventory. The plan should focus on:

     • reviewing demand-forecasting procedures and developing metrics to identify a
       bias toward overforecasting;

     • accelerating the efforts to achieve total asset visibility;

     • reducing the average level of on-order secondary inventory that exceeds
       requirements;

     • reviewing and validating methods to establish economic and contingency
       retention requirements; and

     • reviewing on-hand inventory items that have no demand, developing metrics to
       track years of no demand, and developing procedures for ensuring the potential
       reutilization or disposal of the no-demand inventory.

                                              20
In October 2010, the Assistant Secretary of Defense for Logistics and Materiel Readiness
issued the “Department of Defense Comprehensive Inventory Management Improvement
Plan,” requiring Military Departments to implement the plan’s policies, procedures, and
metrics for inventory management that address the requirements in Public Law 111-84,
section 328. PMO Stryker officials should comply with DoD and Army property
accountability regulations so that they can start tracking the inventory and compiling the
necessary data to comply with the DoD comprehensive plan for inventory management
that addresses overforecasting, total asset visibility, excess inventory, economic retention
requirements, and aggressive potential reutilization and disposal reviews to meet the
intent of Public Law 111-84, section 328.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to implement a comprehensive inventory management improvement
plan that complies with the DoD inventory management plan and addresses
overforecasting, total asset visibility, excess inventory, economic retention requirements,
and aggressive potential reutilization and disposal reviews to meet the intent of Public
Law 111-84, section 328.

Obsolete and Excess Stryker Inventory for High-Dollar
Review Parts
Our review of 21 high-dollar parts, valued at $85.1 million, showed that 16 parts had
excess Stryker inventory of $72.7 million that could be either disposed of ($58.0 million)
or potentially used on other contracts ($14.7 million). For example, we found 170 empty
engine containers (part 10650112), valued at $1.1 million, that General Dynamics
determined could be used to store a different engine, thereby reducing future costs.
General Dynamics also initiated action to dispose of different obsolete parts we identified
during the audit.

During our audit, we classified the 21 parts in our sample in the appropriate accounts as
described in DoD FMR 7000.14-R, volume 4, chapter 4. According to DoD 4140.1-R,
the approved acquisition objective is the quantity of parts needed to meet peacetime and
wartime requirements. Additionally, DoD 4140.1-R states that active inventory consists
of “Materiel that is expected to be consumed within the budget year (2 years) and
materiel that has been purchased to meet specific war reserve requirements.”

Therefore, we calculated a 2-year demand using data provided by General Dynamics to
establish the quantity for the “Inventory Held for Resale” (Account 1521). For the
“Inventory Held in Reserve for Future Sale” (Account 1522), we also used a 2-year
demand to determine the quantity for that account. For the “Excess, Obsolete, and
Unserviceable Inventory” (Account 1524), we calculated the quantity remaining after
subtracting the quantity placed in accounts 1521 and 1522 from the quantity on hand that
was available for issuance. Table 3 shows a summary of our classifications of the
21 review parts in the appropriate DoD accounts (DoD FMR 7000.14-R, volume 4,
chapter 4). For details on specific parts, see Appendix E.



                                            21
       Table 3. OIG Review of Stryker CLS Inventory for the 21 Sample Parts
                                     (millions)
                                                      Contingency/
                               Requirements                                  Excess/Obsolete
    Category         Parts                         Economic Retention
                              (Account 1521)                                 (Account 1524)
                                                     (Account 1522)                                Total
  Obsolescence         5                    0.0                      0.0                 $58.0      $58.0
  Potential Use
                       5                  $0.9                      $0.9                     9.0     10.8
  Outside CLS
  Excess
                       6                    0.2                      0.2                     5.6      6.0
  Inventory
  Acceptable           5                    8.8                      1.6                     0.0     10.4
     Total            21                  $9.8                      $2.6                 $72.7      $85.1
 Note: Because of rounding, columns may not sum. Values on hand as of January 30, 2012.

Action Needed to Be Taken to Dispose of Obsolete Inventory
During the audit, we identified five parts, valued at $58.0 million, that were considered
obsolete because of the changing configurations on the Stryker vehicles. However,
PMO Stryker personnel did not take timely action to dispose of the obsolete inventory.
According to DoD 4140.1-R, section C2.8.1.1.4,

                  Personnel involved in wholesale materiel management functions
                  should seek to eliminate wasteful retention practices and achieve
                  cost savings in the retaining stock where possible. In particular, the
                  DoD Components should ensure that item managers and distribution
                  system managers process disposals in a timely manner. Generally,
                  potential reutilization stock shall not be held by an IMM
                  [integrated materiel manager] longer than 12 months after
                  stratification, or by the distribution system longer than 6 months after
                  a disposal release order is received from the IMM. [emphasis added]

The following section provides information on the obsolete parts.

Review Part 1 – Thermal Imaging Module
The thermal imaging module became obsolete on September 29, 2005 (engineering
change order BCT00039 R1), for new production vehicles and parts that failed on fielded
Stryker vehicles. Then on June 18, 2007, according to engineering change order
GDV6293, all Stryker vehicles were to be retrofitted with the newer thermal imaging
module (part 68112518-01) making all inventory of the old part (part 1310010-501)
obsolete. As of January 30, 2012, PMO Stryker had 768 units of the obsolete thermal
imaging module in inventory, valued at about $57.0 million, or $74,086.00 each. The
large amount of inventory for the obsolete thermal imaging module was a result of
removing the part from the Stryker vehicles and replacing it with the newer thermal
imaging module. On April 5, 2012, General Dynamics received approval from PMO
Stryker to dispose of 765 units, which accounted for $56.7 million of the total
obsolescence value of $58.0 million identified in Table 3.



                                                     22
Review Parts 2, 3, and 4 – Commander’s Seat Assembly
On April 15, 2009, these three variations of the commander’s seat assembly became
obsolete and were replaced with new, ceiling-mounted, energy-attenuating seats. The
new seats provided additional protection against roadside improvised explosive devices
by limiting the energy transferred by the explosives. Between February 2011 and
August 2011, General Dynamics requested and received confirmation to dispose of the
three obsolete commander’s seat assemblies, for a total of 1,210 units, valued at
$9.9 million.11 Although the Army approved disposal of a majority of the units for these
three parts, as of January 30, 2012, the cumulative total of the three obsolete
commander’s seat assemblies remaining in inventory was 135 units, valued at
$1.1 million.

Review Part 5 – Ramp Manifold
The ramp manifold was a component of the actuation system that was used to open and
close the rear ramp on the Stryker vehicle. In October 2004, the ramp manifold
(part 10626152) became obsolete in production vehicles and was replaced by
part 10660046-001. By April 2007, the old ramp manifold became obsolete for both
production and fielded vehicles. As of January 30, 2012, General Dynamics reported that
seven units, valued at $9,608, or $1,372.61 each, remained in inventory. However, we
found that another 659 units, valued at $904,549, were still being stored and managed at
the GOCO warehouse and awaiting disposition approval from PMO Stryker officials.
These 659 units along with several other obsolete and excess parts were not reported to
us because General Dynamics coded them as nonissuable inventory. General Dynamics
indicated that they reported nonissuable and issuable inventory daily to PMO Stryker
personnel.

The Program Executive Officer, Ground Combat Systems, needs to require, the Project
Manager, Stryker, to perform a thorough review of the Stryker spare parts inventory and
take appropriate action to dispose of obsolete parts.

Excess Stryker Inventory Could Be Used in Production or on a
Higher Level Assembly
During the audit, we identified excess Stryker spare part inventory relating to five parts,
valued at $10.8 million, that could be used for production of Stryker vehicles or on a
higher level assembly part. One of the issues preventing General Dynamics from using
excess Stryker spare part inventory to meet production requirements was a 23.4-percent
buyback charge that PMO Stryker would charge General Dynamics to buy back the part
and use it on another Stryker contract. According to PMO Stryker officials, the
23.4-percent buyback charge was equivalent to the FY 2007 cost recovery rate that
TACOM developed and adjusts each fiscal year. PMO Stryker officials decided to use
the TACOM surcharge rate to recover the fee and procurement rates that General

11
  The value of the review parts was based on the pricing data that General Dynamics provided us instead
of the pricing data listed in the DCMA’s Plant Clearance Automated Reutilization Screening System.



                                                   23
Dynamics already charged when it sold PMO Stryker the part. However, the buyback
charge provides a disincentive for General Dynamics to use the excess Stryker spare part
inventory for other applications. The following section provides detailed information on
the parts that had potential use outside the CLS contract.

Review Part 6 – Netting Material
The netting material was used to hold equipment on Stryker vehicles and was issued with
all new production vehicles. As of January 30, 2012, PMO Stryker had 7,568 units,
valued at $892,896, or $117.98 each. General Dynamics’ records showed no spares
demand for the netting; however, its purchase order history for this part indicated that it
continued to buy the netting for use on new production vehicles. General Dynamics was
unable to transfer the spare netting (see Figure 4) to the production contract without
obtaining prior approval from PMO Stryker officials and paying the 23.4-percent
buyback charge on the material cost.

                                Figure 4. Excess Netting Material




                            Source: Photograph provided by PMO Stryker.


Review Part 7 – Collapsing Sign Stand
The collapsing sign stand was used to mark contaminated areas during field missions and
training exercises and was issued with new production vehicles. As of January 30, 2012,
PMO Stryker had 2,938 units on hand, valued at $81,242, or $27.65 each. 12 General
Dynamics’ records show no spares demand for the collapsing sign stand, but its purchase
order history indicated it still buys the collapsing sign stand for other Stryker efforts.




12
   General Dynamics was unable to determine an exact price for this part, so we calculated the price using
its purchase order history and applying a 17.92-percent burden rate because the part was purchased by
General Dynamics-U.S.



                                                    24
Review Part 8 – Drive Assembly Elevation
The drive assembly elevation was used to elevate and depress a target acquisition housing
assembly on the Stryker vehicle and was procured to meet spares and new production
requirements (see Figure 5). As of January 30, 2012, PMO Stryker had 97 units on hand,
valued at $2.1 million, or $21,287.69 each. General Dynamics’ records showed that for
the next 2 years, it anticipated a demand of five spares; therefore, PMO Stryker had about
32.3 years’ worth of inventory for this part. General Dynamics was unable to transfer the
spare drive assembly elevation to the production contract without obtaining prior
approval from PMO Stryker officials and paying the 23.4-percent buyback charge on the
material cost.

                         Figure 5. Drive Assembly Elevation




                              Source: Photograph provided by
                                PMO Stryker.

Review Part 9 – Power Electronics Assembly
The power electronics assembly was a motor controller that powered the drive system
(see Figure 6). As of January 30, 2012, PMO Stryker had 56 units, valued at
$7.2 million, or $127,734.15 each. General Dynamics was required to maintain
four units in inventory for flyaway deployment packages, which left 52 units available for
use as spares for the Stryker vehicles. General Dynamics’ records showed a 2-year
demand of five units for this part; therefore, PMO Stryker had 17.3 years’ worth of
inventory for the power electronics assembly. General Dynamics was unable to transfer
the spare power electronics assembly to the production contract without obtaining prior
approval from PMO Stryker officials and paying the 23.4-percent buyback charge on the
material cost.




                                            25
                         Figure 6. Power Electronics Assembly




                       Source: Illustration provided by General Dynamics.

Review Part 10 – Engine Container
The engine container (part 10650112; see Figure 1) was originally procured to store a
specific Stryker engine; however, in December 2006, the supplier notified General
Dynamics that it would no longer be producing that engine. Therefore, PMO Stryker
officials allowed General Dynamics to do a “last-chance” buy to procure additional
engines and containers. Over the past several years, General Dynamics procured newer
engines with new engine containers; therefore, there was no longer a requirement for the
older engine containers in inventory.

During the audit, we identified the excess containers, and in July 2011, General
Dynamics took action to change the buy requirements for the new engines to purchase
only the engine and then store it in the old containers until the existing inventory was
depleted. Over the next 2 years, the demand for the engine containers increased from 0 to
20 engine containers. We commend General Dynamics for finding a use for the
170 engine containers on hand, valued at $1.1 million, or $6,470.24 each. See
Appendix F for details on potential monetary benefits.

Excess Inventory Needed to Be Addressed
During the audit, we identified excess Stryker spare part inventory relating to six parts,
valued at $6.0 million, that had a reduced demand or excessive procurement quantities.
The following section provides detailed information on the parts whose demand
requirements significantly decreased or for which General Dynamics made excessive
procurements.
Review Parts Related to the Wheel Drive and Suspension System
Review parts 11-16 were all components of the wheel drive and suspension system that
experienced a high level of field failures between 2007 and mid-2009 (see Table 4).

                                              26
However, starting in 2010, General Dynamics’ consumption for these parts decreased
because of changes in mission execution and the installation of a heavyweight driveshaft,
which led to a decrease in failures. Table 4 shows a significant reduction in parts
consumption in 2011 from earlier years.

        Table 4. Consumption History for Parts With Reduced Demand or Excess
                       Procurement Quantities, by Fiscal Year
                                                                        Total Consumption
             Review Part               Number            2006   2007      2008     2009         2010    2011
    11-Planet Pinion                   10650815           828   1,204     2,117    1,940        1,054     72
    12-Left Hand Brake Assembly      10663271-001         324    216        718     986          539      0
    13-Right Hand Brake Assembly     10663270-001         213    356        680    1,178         487      0
    14-Ring Gear Carrier               10650813           539   1,156     1,162    2,499        1,323     17
    15-Wheel Hub                       10650817           179   1,036     1,603    1,136         601      16
    16-Wheel Bearing Flange          10664080-001          77   2,571     1,857    1,508         782      24


Table 5 shows that PMO Stryker had between 32 and 1,147 years of inventory for review
parts 11-16.

              Table 5. Quantity On Hand and Demand for Review Parts 11-16
                                  Quantity                      Total Price        2-Year          Years of
           Review Part                          Unit Price
                                  On Hand1                      (in millions)     Demand2         Inventory
    11-Planet Pinion                   9,179        $62.32                $0.6          15            1,147
    12-Left Hand Brake
                                       1,845        705.99                 1.3             3            923
    Assembly
    13-Right Hand Brake
                                       1,783        705.99                 1.3             11           297
    Assembly
    14-Ring Gear Carrier               2,581        390.18                 1.0             98            53
    15-Wheel Hub                       1,741        283.66                 0.5             91            38
    16-Wheel Bearing Flange            1,831        719.12                 1.3         113               32
1
    Quantity on hand as of January 30, 2012.
2
    General Dynamics 2-year forecasted demand as of September 1, 2011.

Further, General Dynamics purchased 7,197 units of review part 11, the planet pinion, in
                                             May 2009, when actual consumption for the
     This bias toward overforecasting        previous year (2008) was only 2,117 units.
        resulted in the Army owning          As of September 2011, forecasted 2-year
    9,179 planet pinions, valued at over     demand for the planet pinion was only
  $572,000, when 2-year demand for the       15 units. This bias toward overforecasting
           part was only 15 units.           resulted in the Army’s owning 9,179 planet
                                             pinions, valued at over $572,000, when
2-year demand for the part was only 15 units.

The Program Executive Officer, Ground Combat Systems, needs to require the Project
Manager, Stryker, to perform a thorough review of excess Stryker inventory and


                                                    27
determine whether the parts can be used to meet other related Stryker requirements and
ensure any material buy-back provisions do not provide a disincentive for the contractor
to fully use the excess inventory.

Management Comments on the Finding and
Our Response
The Deputy Program Executive Officer, Ground Combat Systems (Deputy PEO),
disagreed with aspects of the finding, but agreed with the recommendations.

Department of the Army Comments
The Deputy PEO stated that the finding and conclusion that PMO Stryker inappropriately
treated and classified Stryker inventory as CAP was factually incorrect. He stated that
during earlier periods of performance in the contract, PMO Stryker required the
contractor to account for CAP in accordance with FAR 45 and FAR 52.245-1 guidance
on Government property. The Deputy PEO also stated that the Stryker CLS contract
included contract data requirements list (CDRL) reports, which provided PMO Stryker
with the necessary oversight of the Government property in the possession of the
contractor. As part of the CDRL reports, General Dynamics provided details about the
parts purchased and repaired, including costs, consumption, and on-hand inventory.

Additionally, the Deputy PEO stated that the requirement for delivery and Government
acceptance of excess CAP at the end of a contract was not incorporated in
DFARS PGI 245.4 until January 2011, which was during the fourth year of the Stryker
CLS contract. He stated that the Stryker inventory was never delivered to the Army
because the material was not an end product deliverable under a CLIN on the Stryker
CLS contract; therefore, PMO Stryker was not required to account for the inventory per
the USD(AT&L) memorandum, “Contractor Acquired Property (CAP) Under Cost
Reimbursement Contracts and Line Items,” January 11, 2010.

Our Response
We acknowledge that PMO Stryker and Army Contracting Command-Warren included
FAR clause 52.245-1 in the contract; however, PMO Stryker and Army Contracting
Command-Warren did not provide sufficient oversight to confirm that General Dynamics
was complying with the FAR requirements. FAR clause 52.245-1 requires the contractor
to maintain accountable records for CAP, including quantity and unit acquisition cost.
However, we identified that General Dynamics had at least 3,021 Army-owned Stryker
parts recorded in its Oracle system with no assigned value. We also identified that the
CDRL reports contained inaccurate data, including the costs associated with some of the
parts.




                                           28
This report primarily focused on the Stryker inventory that had accumulated from the
expired base year and four option years, 13 not inventory that was acquired during an
active contract period of performance. We agree that stronger guidance was needed to
clarify when delivery and Government acceptance of inventory should occur for
inventory that was acquired but not consumed by the end of the contract period of
performance. Further, the clarifying guidance should specify how to record the delivered
inventory in DoD property accountability and financial accounting systems. Therefore,
we recommended that the Director, DPAP, working with the Assistant Secretary of
Defense for Logistics and Materiel Readiness issue the necessary guidance
(Recommendation 1). The Director, DPAP, stated that the guidance would be issued
during the second quarter of FY 2013.

The facts of the findings were still accurate in that at least $892.3 million of Army-owned
Stryker inventory was not assigned a value and recorded in the Army’s property
accountability and financial accounting records. PMO Stryker inappropriately classified
and treated the entire Stryker inventory as CAP based on the FAR definition. FAR
Subpart 45.1 defines CAP as property acquired, fabricated, or otherwise provided by the
contractor for performing a contract, and to which the Government has title. However,
General Dynamics did not acquire nor use a majority of the Stryker inventory to perform
CLS services during the fifth contract year (option year 4). In fact, the Stryker inventory,
as of January 2012, was accumulated over at least five contract years (the expired base
year and four option years). For example, the average annual value of the CLS contract
was about $290.6 million, 14 yet the accumulated Stryker inventory procured for garrison
and deployment CLS was valued at about $676.2 million.

While General Dynamics may have acquired Stryker inventory as CAP to perform
logistics support services during previous contract periods of performance, a majority of
the Stryker inventory was not used during the performance of previous contracts based on
the accumulation of inventory. Therefore, any Stryker inventory that was classified as
CAP during an active contract period of performance should no longer be classified as
CAP once the contract period of performance has expired. At the end of the contract
period of performance, the Stryker inventory not otherwise specified for delivery during
the performance of the contract, should be delivered to and accepted by the Army in
accordance with DFARS PGI 245.402-70. Further, the joint USD(AT&L) and USD(C)
memorandum, “Military Equipment Valuation Contractor Acquired Property Business
Rule,” December 22, 2007, requires that upon delivery to the Government, CAP must be
recorded in the appropriate Government property accountability systems.


13
   The Stryker CLS contract included a base year and five option years with successive annual periods of
performance from March through February. The fourth option year ended in February 2012. Each option
year represented a new separate and distinct contract in accordance with DoD FMR 7000.14-R, Volume 3,
Chapter 8, “Standards for Recording and Reviewing Commitments and Obligations.”
14
   The annual average contract value was calculated by dividing the CLS contract value of $1.5 billion
(material and labor cost) over 5 years. The CLS contract value of $1.5 billion only included CLS contract
line items of more than $40 million.



                                                   29
Recommendations, Management Comments, and
Our Response
Revised Recommendation
As a result of management comments, we revised draft Recommendation 4 to clarify that
the Assistant Secretary of the Army for Acquisition, Logistics, and Technology was the
single office responsible for implementing the corrective action and should have support
from the Assistant Secretary of the Army (Financial Management and Comptroller).

1. We recommend that the Director, Defense Procurement and Acquisition Policy,
working with the Assistant Secretary of Defense for Logistics and Materiel
Readiness, issue additional policy that clarifies the Under Secretary of Defense for
Acquisition, Technology, and Logistics memorandum, “Contractor Acquired
Property (CAP) Under Cost Reimbursement Contracts and Line Items,”
January 11, 2010, specifically for logistics services contracts with no end-item
deliverables and how to properly account for and value the inventory on these
contracts that is not consumed during the period of performance.

Defense Procurement and Acquisition Policy Comments
The Director, DPAP, agreed with the recommendation and stated that additional guidance
would be issued during the second quarter of FY 2013.

Our Response
The Director, DPAP, comments were responsive and met the intent of the
recommendation. No further comments were required.

2. We recommend that the Program Executive Officer, Ground Combat Systems,
require the Project Manager for the Stryker Brigade Combat Team, to:

        a. Accept delivery of all contractor-acquired property that was not
consumed during the contract period of performance on a contract line item in
accordance with Defense Federal Acquisition Regulation Supplement, Procedures,
Guidance, and Information 245.402-70. Additionally, all Stryker inventory
identified in this report needs to be officially delivered and accepted as Government
property before the award of the follow-on Stryker contractor logistics support
contract scheduled in FY 2013.

Department of the Army Comments
The Deputy PEO partially agreed with the recommendation and stated that Stryker
inventory in excess of the CLS contract requirements would be accepted in accordance
with DFARS PGI 245.402-70. However, he stated that because of the volume of material
procured in support of other contracts, the acceptance of these materials would not be
completed before the award of the next CLS contract planned for December 2012. The



                                           30
Deputy PEO stated that the Army would complete the acceptance of all Stryker material
by September 30, 2013.

       b. Require General Dynamics to accept responsibility and create and
maintain appropriate accountability records in accordance with Federal Acquisition
Regulation 52.245-1 for any inventory considered contractor-acquired property or
Project Management Office, Stryker Brigade Combat Team needs to accept
delivery of the inventory at the Government-owned, contractor-operated warehouse
as Government property.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that General Dynamics
would continue to maintain appropriate property accountability records in accordance
with FAR 52.245-1, which began with the first Stryker CLS contract awarded in
May 2002. Additionally, he stated that a procurement contracting officer letter would be
issued in November 2012 that would remind General Dynamics of its obligation to
comply with FAR 52.245-1. Further, he stated that PMO Stryker would perform
oversight in accordance with the contract surveillance plan to verify the contractor’s
compliance with FAR 52.245-1.

       c. Develop procedures to properly value the Stryker inventory, as required
by DoD Financial Management Regulation 7000.14-R, volume 4, chapter 4, or
follow the best practices outlined in the Under Secretary of Defense for Acquisition,
Technology, and Logistics and Under Secretary of Defense (Comptroller)
memorandum, “Baseline Valuation and Certification for Department of Defense
(DoD) Inventory and Operating Materials and Supplies,” November 8, 2005.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that the contractor would
value CAP at the original purchase cost or best estimate in accordance with DFARS
PGI 245.402-70. Additionally, he stated that Stryker inventory that was acquired by the
Government and furnished to the contractor to perform the CLS contract, would be
valued at historical moving average cost in accordance with DoD FMR 7000-14-R,
volume 4, chapter 4. Further, the Deputy PEO stated that the effort to value the Stryker
inventory started on October 1, 2011, and was scheduled to be completed by
March 1, 2014.

        d. Perform a thorough review of the Stryker inventory, record the inventory
in an Army property accountability system, and properly stratify the inventory as
approved acquisition objective, economic retention stock, contingency retention
stock, or potential reutilization stock, as required by DoD Regulation 4140.1-R and
Army Regulation 735-5.




                                           31
Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that as of October 1, 2012,
Government-accepted Stryker inventory was being recorded, valued, and properly
stratified in the LMP system.

       e. Establish a detailed transaction history for Stryker inventory that records
anticipated receipts of inventory as material due-ins, material received, or material
transferred out, as required by DoD Regulation 4140.1-R and Army
Regulation 735-5.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that FAR 52.245-1 and
DFARS PGI Subpart 245 require the contractor to establish a detailed transaction history
for CAP. Additionally, he stated that PMO Stryker will maintain a detailed transaction
history for all Government property in accordance with the DoD and Army regulations.

       f. Adhere to DoD Financial Management Regulation 7000.14-R, volume 4,
chapter 4, and report the Stryker inventory on Army Financial Statements in the
appropriate general ledger accounts to support the Army’s goal of having auditable
financial statements to comply with Public Law 111-84, section 1003.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that the Stryker inventory
that was procured and accepted on completed contracts would be recorded in the LMP
system for reporting on the Army financial statements. He stated that this process began
on October 1, 2011, and would be completed by March 1, 2014. However, he stated that
Stryker inventory classified as CAP would not be recorded on Army financial statements.

       g. Accept delivery of Stryker inventory as Government property and value
the inventory in Logistics Modernization Program before parts are requisitioned
and charged to the Stryker brigades.

Department of the Army Comments
The Deputy PEO partially agreed with the recommendation and stated that the acceptance
and valuation of all Stryker inventory procured under previous contract periods of
performance would be completed by March 1, 2014. He stated that the acceptance and
valuation process could not be completed before parts were requisitioned and charged to
the Stryker brigades; however, the proposed transition period would allow time for the
implementation of the recommendation while maintaining Stryker vehicle readiness.

        h. Implement a comprehensive inventory management improvement plan
that complies with the DoD comprehensive inventory management plan and
addresses overforecasting, total asset visibility, excess inventory, economic retention
requirements, and aggressive potential reutilization and disposal reviews to meet the
intent of Public Law 111-84 section 328.

                                           32
Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that the following inventory
performance metrics were established for the contract as of October 1, 2011: requisition
fill time; inventory turns; inventory accuracy; and first-pass stock availability.
Additionally, he stated that PMO Stryker would routinely analyze worldwide
requirements for other potential applications of excess parts. Further, the Deputy PEO
stated that in May 2012, PMO Stryker developed a formal excess and obsolete inventory
review process and added a contract requirement that requires General Dynamics to
report excess and obsolete Stryker inventory to the Army for disposition. He stated that
PMO Stryker would continue to review General Dynamics’ requests for material
disposition.

3. We recommend that the Program Executive Officer, Ground Combat Systems,
develop performance standards for or Project Management Office, Stryker Brigade
Combat Team personnel that address proper accountability and financial controls
over all Government property.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that PEO Ground Combat
Systems has performance standards for PMO Stryker personnel that address proper
accountability and financial controls over all Government property.

Our Response
The Deputy PEO comments on Recommendations 2 and 3 were responsive and met the
intent of the recommendations. No further comments were required.

4. We recommend that the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology), with support from the Assistant Secretary of the Army (Financial
Management and Comptroller), establish a multifunctional support team with
necessary knowledge, technical expertise, and creditability to properly account for
the Government property procured on the cost-reimbursable services contract for
Stryker vehicles and work with Project Management Office, Stryker Brigade
Combat Team, to ensure that Stryker inventory has been assigned a value and
recorded in appropriate Army accountability and financial accounting systems.

Department of the Army Comments
The Deputy for Acquisition and System Management, ASA(ALT), in coordination with
ASA(FM&C), agreed with the recommendation and stated that the process for
coordinating the multifunctional support team began in August 2009. Further, he stated
that, during the most recent meeting in October 2012, the ASA(FM&C) committed to
providing support to the multifunctional support team on an “as needed/as requested
basis.”




                                          33
Our Response
The Deputy for Acquisition and System Management comments were responsive and met
the intent of the recommendation. No further comments were required.

5. We recommend that the Program Executive Officer, Ground Combat Systems,
require the Project Manager for the Stryker Brigade Combat Team to:

      a. Perform a thorough review of all Stryker spare part inventory and take
appropriate action to dispose of obsolete parts.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that, as of March 1, 2012,
the CLS contract was modified to require General Dynamics to properly monitor and
manage Stryker excess inventory. Specifically, he stated that the contractor was required
to routinely report excess and obsolete inventory to the Army for disposition. In addition,
he stated that, as a result of the new requirement, PMO Stryker identified $5 million in
unusable inventory from May 2012 through October 2012.

       b. Perform a thorough review of excess Stryker inventory and determine
whether the parts can be used to meet other related Stryker requirements and
ensure any material buy-back provisions do not provide a disincentive for the
contractor to fully use the excess inventory.

Department of the Army Comments
The Deputy PEO agreed with the recommendation and stated that PMO Stryker
continuously reviews excess and obsolete inventory reports submitted by the contractor
and analyzes world-wide requirements for other potential uses. Additionally, he stated
that the excess inventory identified could be provided as Government-furnished material
to the contractor if other requirements exist for non-CLS Stryker or other Government
programs. Further, he stated that the next CLS contract, planned for award in
December 2012, would include incentives to encourage General Dynamics to buy back
excess Stryker inventory to support non-CLS requirements.

Our Response
The Deputy PEO comments were responsive and met the intent of the recommendation.
No further comments were required.




                                            34
Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through November 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Interviews and Documentation
We met with representatives from ASA(FM&C); Acting Executive Director, Army
Contracting Command, Warren, Michigan; Program Executive Office, Ground Combat
Systems; and Project Manager, PMO Stryker.

We interviewed personnel from the Army Contracting Command, Warren, Michigan;
PMO Stryker, Warren, Michigan; DCMA, Warren, Michigan, and Auburn, Washington;
Defense Contract Audit Agency, Sterling Heights, Michigan; General Dynamics Land
Systems, Sterling Heights, Michigan; Auburn, Washington; and London, Ontario Canada.

We reviewed copies of three Stryker contractor logistics support contracts
(W56HZV-07-D-M112, DAAE07-02-C-B001, and W56HZV-06-C-B003) and
acquisition planning documentation from PMO Stryker, dated from May 2002 to
March 2012. For contract W56HZV-07-D-M112, we reviewed CLS contract line items
of more than $40 million on delivery orders 0019, 0169, and 0269, which totaled
$1.5 billion. Additionally, we reviewed inventory quantities, unit prices, purchase order
and work-in-process histories, invoices, demand forecasts, and engineering change orders
provided by General Dynamics. We also analyzed documentation from PMO Stryker,
including inventory disposition schedules that were extracted from the DCMA’s Plant
Clearance Automated Reutilization Screening System and procurement contracting
officer letters related to configuration changes. Additionally, PMO Stryker and General
Dynamics personnel provided us with pictures and illustration of the spare parts.

We reviewed the public laws, FAR, DoD Regulations, and Army Regulations for
guidance related to the accountability for and financial accounting of Government
property. We also reviewed Government property valuation guidance from the DoD
FMR 7000.14-R and USD(AT&L) and USD(C). Additionally, we reviewed criteria
related to contractor-acquired property, including memorandum guidance from
USD(AT&L).

Sample Selection
As of September 2010, General Dynamics managed 15,422 different Stryker parts. From
the universe of 15,422 different parts, using professional judgment, we selected a
nonstatistical sample of 28 parts with anomalies, such as large amounts of inventory with
limited demand. For 23 of the sample parts, General Dynamics was able to provide a unit
price; however 5 of the 28 parts did not have a unit price.


                                           35
In March 2011, General Dynamics provided updated quantities on hand at the Auburn
warehouse and in June 2011, General Dynamics provided purchase order and work-in-
process histories for the 28 parts. For the five parts with no unit price, we used the latest
purchase order or work-in-process cost and added a burden rate of either 17.92 percent
for General Dynamics-U.S.-procured or -manufactured part or 23.68 percent for General
Dynamics-Canada-procured or -manufactured part. The burden rate includes General
Dynamics’ costs of doing business, such as overhead, general and administrative, and
procurement costs, and a profit of 9.50 percent. ∗ We then excluded any parts from our
sample that had an inventory value of less than $20,000. Therefore, we removed 7 parts
from the sample, leaving 21 parts in the final sample.

In January 2012, General Dynamics provided an updated Stryker inventory list that
included 19,365 different parts, including 16,344 parts valued at $892.3 million and
3,021 parts that were not assigned a value.

Obsolete and Excess Inventory Analysis
To determine whether excess inventory existed for our nonstatistical sample of 21 parts,
we reviewed the total inventory of on-hand quantities as of January 30, 2012, and 2-year
demand data as of September 1, 2011, that General Dynamics provided us. The
inventory of on-hand quantities and demand data incorporated data for the CLS, BDAR,
and Reset efforts because the comingled inventory for these three efforts could be used
interchangeably to fulfill requirements for any of the efforts as needed. However, we
excluded on-hand quantities designated as “flyaway packages” (mandatory parts that
travel with the vehicles during missions) and anticipated authorized stockage list
requirements (parts that are inventoried for the brigades) from the inventory on hand.
For example, according to General Dynamics’ records, part 10080435-01, “SEM
Scanner,” had a quantity on hand of 28 units. However, 12 units were dedicated to
“flyaway packages,” and 8 units were expected to be added to the authorized stockage
list. Therefore, only eight units were available for consumption under CLS efforts.

We stratified inventory quantities to meet a 2-year demand for operational requirements
and retention requirements, respectively. The operational inventory was classified as
“Inventory Held for Resale” (Account 1521), and the retention inventory was classified
as “Inventory Held in Reserve for Future Sale” (Account 1522). Any remaining quantity
on hand for a particular part was classified as “Excess, Obsolete, and Unserviceable
Inventory,” (Account 1524). For example, for part 10650813, “Ring Gear Carrier,”
General Dynamics’ records indicated the inventory on hand to be 2,581 units, valued at
$1.0 million, or $390.18 each. The 2-year demand for this part was 98 units, valued at


∗
  For a majority of the CLS years, General Dynamics earned a higher fixed fee (9.50 percent) for
deployment CLINs as opposed to the garrison CLINs (9.25 percent). The deployment CLINs have a higher
fixed fee because those Stryker vehicles require more scheduled and unscheduled maintenance than
garrison vehicles. The deployment CLINs represent about 73.3 percent of the CLS costs. Therefore for the
purposes of this report, we used the deployment CLINs fixed fee of 9.50 percent whenever we fully
burdened unit prices for our sample parts.



                                                  36
$38,237. Therefore, we populated both Accounts 1521 and 1522 with a value of $38,237
to represent the dollar value of the 2-year demand requirement. The remaining
2,385 units, valued at $930,574, were placed in Account 1524 because they potentially
exceeded requirements.

Additionally, we determined the years of inventory by dividing in half the 2-year demand
requirement to determine the annual demand for a given part. We then divided the
inventory on-hand quantity available for CLS consumption by the annual demand
requirement to determine how many years of inventory were available for future
consumption given the current annual demand. For example, part 10650813, “Ring Gear
Carrier,” General Dynamics indicated quantity on hand of 2,581 units and a 2-year
demand of 98 units for this part. We divided the 2-year demand of 98 units by 2 to
determine an annual demand of 49 units. Then we divided the quantity on hand of
2,581 units by 49 units to determine that the Army had 52.7 years’ worth of inventory
that General Dynamics managed.

We determined that parts with less than 4 years of inventory on hand were acceptable to
manage, while parts with more than 4 years of inventory exceeded requirements.

Use of Computer-Processed Data
We relied on the total inventory value of about $892.3 million provided by General
Dynamics for 16,344 different items for CLS, BDAR, retrofit, and Reset efforts. General
Dynamics calculated the inventory value and quantities from various sources: Oracle,
Data Management Information System, last purchase order price, a contractor data
requirements list that provided moving-average prices, and contractor support team
estimates. General Dynamics provided the following disclaimer with the data:

               The information in this document has been prepared solely for
               information purposes in response to specific DoD Inspector General
               requests regarding government owned inventory. The information as
               presented herein is not an official record or deliverable of General
               Dynamics or any of its subsidiaries and should not be relied upon for
               any decision, analysis or evaluation regarding government owned
               inventory valuation. The data herein has not been verified or validated
               for accuracy particularly with respect to dollar valuations.

Although the inventory pricing data provided by General Dynamics was incomplete and
we were unable to verify its accuracy, the exactness of the total inventory valuation is not
material to the report finding and conclusions.

In April 2012, DCMA personnel reviewed and found no material deficiencies in General
Dynamics; 100-percent physical inventory counts. Therefore, we determined the
inventory quantities reported by General Dynamics to be sufficient and complete.

We also relied on purchase order histories and work-in-process reports generated by
General Dynamics’ Oracle system. We used the purchase order history and work-in-
process reports to determine whether any parts were procured or manufactured after the


                                                 37
part became obsolete or if a part could be used for another effort (for example, production
of the Stryker vehicles) or in a higher level assembly. We also used General Dynamics’
purchase order and work-in-process histories to help calculate the unit prices for 2 of the
21 sample parts that General Dynamics was not able to value. We verified the accuracy
of the purchase order or work-in-process job numbers, quantities ordered or completed,
and unit prices indicated in the purchase order and work-in-process histories by
comparing them to the actual purchase orders and work-in-process discrete job value
reports. We also verified the completeness of the purchase order and work-in-process
histories by observing General Dynamics extract the histories from its Oracle system.

We determined that the purchase order histories and work in-process reports obtained
from General Dynamics provided sufficient evidence to identify parts that were
potentially procured by General Dynamics and subsequently billed to the Army after the
part went obsolete and to determine whether existing excess Stryker inventory could be
used on different efforts to draw down the inventory.

We relied on computer-processed data from the Electronic Document Access system to
identify the period of performance and total obligated amount for each contract line item
number (CLIN) under contract W56HZV-07-D-M112 delivery orders 0019, 0169, and
0269. The Electronic Document Access system is a Web-based system that provides
secure online access, storage, and retrieval of contracts and contract modifications to
authorized users throughout DoD. To assess the reliability of contract modifications
extracted from the Electronic Document Access system, we compared the contract
modifications to PMO Stryker contract files and determined that the contract
modifications extracted from the Electronic Document Access system presented no
errors. Therefore, we determined that the contract modifications extracted from the
Electronic Document Access system provided sufficient and complete evidence that was
reliable for the purposes of this report.

Overall, we did not find errors that would preclude the use of the computer-processed
data to meet the audit objectives or that would change the conclusions we reached.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD
Inspector General (DoD IG) have issued three reports related to the Army logistics
support contract for the Stryker vehicle with General Dynamics. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov/. Unrestricted DoD IG
reports can be accessed at http://www.dodig.osd.mil/audit/reports.

GAO
Report No. GAO-11-240R, “DoD’s 2010 Comprehensive Inventory Management
Improvement Plan Addressed Statutory Requirements, But Faces Implementation
Challenges,” January 7, 2011




                                            38
Report No. GAO-12-493, “Defense Inventory: Actions Underway to Implement
Improvement Plan, but Steps Needed to Enhance Efforts,” May 3, 2012

DoD IG
Report No. DODIG-2012-102, “Better Cost-Control Measures Are Needed on the Army’s
Cost-Reimbursable Services Contract for Logistics Support of Stryker Vehicles,”
June 18, 2012




                                       39
Appendix B. DoD Guidance Memorandum
on Contractor-Acquired Property

                        OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                        3000 DEFENSE PENTAGON
                                       WASHINGTON, DC 20301-3000




   ACQUISITION.                                                                     JAN 11 2010
  TECHNOLOGY
  AND l-OGISTICS


        MEMORANDUM FOR COMMANDER, UNITED STATES SPECIAL OPERA T!ONS
                          COMMAND (ATTN: ACQUISITION EXEC UTIVE)
                       COMMANDER, UNITED STATES TRANSPORTATION
                          COMMAND {ATIN: ACQUISITION EXECUTIVE)
                       DEPUTY ASSISTANT SECRETARY OF THE ARMY
                          (PROCUREMENT), DASA(P)
                       DEPUTY ASSISTANT SECRETARY OF THE NAVY
                          (ACQUISITION AND LOGISTICS MANAGEMENT),
                          ASN (RDA)
                       DEPUTY ASSISTANT SECRETARY OF THE AIR FORCE
                         (CONTRACTING), SAF/ AQC
                       ASSISTANT SECRETARY OF DEFENSE (LOGISTICS AND
                         MATERIEL READINESS)
                       DIRECTORS, DEFENSE AGENCIES
                       DIRECTORS, DOD FIELD ACTIVITIES

        SUBJECT: Contractor Acquired Property (CAP) under Cost Reimbursement Contracts
                 and Line Items

                This memorandum is issued to clarify Department of Defense (DoD) business
        rules for Contractor Acquired Property (CAP). CAP, as defined by the Federal
        Acquisition Regulation (FAR) 45.10 I, is property acquired, fabricated, or otherwise
        provided by the contractor for performing a contract and to which the Government has
        title. Business rules relative to CAP are exclusive to cost-reimbursement contracts as
        well as cost reimbursement line items under mixed type contracts and cost reimbursement
        delivery orders under indefinite delivery contracts or basic ordering agreements.

                Historically, some DoD Components sought to establish accountable property
        records for CAP - an inefficient practice that resulted in duplicate accountability records.
        In a joint memorandum entitled "Military Equipment Valuation Contractor Acquired
        Property Business Rule," dated December 22, 2007, the Office of the Under Secretary of
        Defense (Comptroller) and Under Secretary of Defense (Acquisition, Technology &
        Logistics) clarified the Department' s policy (attached). The business rule states that
        although title passes to DoD when the property is obtained by the contractor, the property
        will not be recorded on DoD fmancial statements (as other than construction in process)
        or in accountability systems until the property is delivered to DoD.




                                                    40
        Given the many ongoing audits and Congressional interest in Government
Property, it is imperative that DoD Components understand the business rules for CAP,
as well as the aforementioned change in accountability and financial record keeping, and
that they ensure that accountable property records are established for CAP only upon
delivery to the Government on a contract line item number (CLIN).

      The procedures and guidance in the attachment for formulation and valuation of
CLINs for CAP delivery shall be published as PGI 245.40 I, Contractor Acquired
Property, within 90 days from the date of this memorandum.

      My point of contact for this matter is
                                                      ~



                                         .
                                          /
                                               ~;\
                                               ~r, ~ad    Defense Procurement
                                                    and Acquisition Policy

Attachment:
As stated




                                               2




                                               41
                                     ATIACHMENT

SUBJECT: Business Rules for Establishing Accountable Property Records for
           Contractor Acquired Property (CAP)

   I. Title.

          a. The Government has title to CAP (under cost reimbursement contracts).
         b. Title to property acquired by contractors under fixed price contracts is
   dependent on the contract terms and conditions as follows:
              1) Fixed price contracts. The contractor retains title to all property
   acquired, except for property identified and ultimately delivered and accepted as a
   deliverable end-items on CLINs.
              2) Fixed price contracts with contract financing provisions. The
   Govenunent obtains title to property acquired by the contractor under financing
   clause(s), up until the point the property is accepted as a deliverable end-item, and all
   payments have been liquidated. This property is not considered CAP.
          c. Government furnished property (GFP). The Government retains title to all
   GFP until ultimately disposed of by authorized means as specified in Federal
   Acquisition Regulation (FAR) Part 45. CAP items subsequently delivered on a CLIN
   are considered GFP when retained by the contractor for continued use under a
   contract. In such cases, and in accordance with the requirements ofFAR 45.102, the
   items shall be added to the contract as GFP by contract modification.
   2. General CAP Business Rules

          a. The Requiring Activity, in partnership with the contracting specialists,
   should determine the CAP items that are required to be delivered. The following
   procedure acknowledges that CAP may not be anticipated at the time of contract
   award.

              1) A CLIN, included at contract award, shaLl include a Contract Data
   Requirements List (CDRL) for the contractor to deliver a list of all CAP items (as
   required). The delivery date for that list should be at the discretion of the Requiring
   Activity, but no later than contract performance completion.

               2) When CAP items are selected for delivery to the Government, a CLIN
   should be structured for CAP delivery and an Exhibit established in accordance with
   FAR Procedures, Guidance and Instructions (POI) 204.7105. This will allow
   identification of CAP and enable the contractor to establish the property acquisition
   value and date placed in service upon delivery of the items in that Exhibit.

                                             3




                                            42
                     a) Separate CLINs should be established for material, equipment,
   special tooling, and special test equipment.

                    b) CLINs should be identified as ·'Not Separately Priced", unless an
   equitable adjustment is necessary, as determined by the Contracting Officer (CO).

           b. CAP items meeting the Item Unique Identification (lUID) criteria of
DF ARS 211.274-2 should be marked and reported to the DoD UID registry upon delivery
in accordance with the clause at DF ARS 252.211-7003. Requiring activities should
update paragraph (c)( l)(ii) of that clause, as required to insert the Exhibit Line Item
Numbers (ELINs) of those items.

           c. Oversight and visibility of CAP not designated for delivery to the
Government is limited to reviews and audits of contractor accounting and property
management systems. Property management systems are maintained in accordance with
the requirements ofFAR 52.245-l(b)(l).

3. Business Rules for Establishing Property Accountability

           a. Consistent with the FAR required order of disposition precedence, once the
contractor determines that the CAP is no longer needed for contract performance, the
contractor may purchase that item at original acquisition cost (See FAR 52.245-1 0)(2)).
If the contractor does not use this option, then the contractor should notify the CO if use
of the property in the performance of other Government contracts is practical.
          b. GFP items shall be added to and/or removed from the contract by contract
modification(s) to both the losing and gaining contracts, and recorded via submission of a
Property Transfer action through Wide Area Work Flow.
           c. Excess contractor inventory (See FAR 45.10 I), including CAP, is disposed
of in accordance with FAR Clause 52.245-1 , Government Property; 52.245-2 or 52.245-
5, as applicable, i.e., reported on Inventory Disposal Schedules (SF 1428) or to the Plant
Clearance Automated Reutilization Screening System. The Inventory Disposal Schedule
is suitable for the CDRL data description (paragraph 2.a.l ).
4. GFP Business Rules

         a. If required, CAP items may be delivered in place of the acquisition contract.
The property is then considered GFP and meets the reporting criteria ofDF ARS 211.211-
7007, and must be reported to the UID registry, once rule 3 b actions are complete.

          b. Provided the requirements ofF AR Part 45.102 are met, CAP may be
retained for continued contract performance. If the requirements ofFAR Part 45.102 do
not apply, the items may be declared excess.

                                             4




                                           43
                         OFFICE OF THE SECRETARY OF DEFENSE




•
                                     WASHINGTON, DC 20301



                                                                         DFC   '•
                                                                                    ""   ....:

MEMORANDUM FOR SECRETARlES OF THE MILITARY DEPARTMENTS
               COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
               DIRECTORS OF THE DEFENSE AGENCIES
               DIRECTORS OF THE DEPARTMENT OF DEFENSE
                 FIELD ACTIVITIES
               ASSISTANT TO THE SECRETARY OF DEFENSE
                 (NUCLEAR, CHEMICAL AND BIOLOGICAL DEFENSE
                 PROGRAMS)

SUBJECT: Military Equipment Valuation Contractor Acquired Property Business Rule

       The attached business rule was developed in response to questions and issues
raised by the DoD Components regarding financial accounting and property
accountability for Contractor Acquired Property (CAP). The rule states that while title
passes to DoD when the property is obtained by the contractor, the property will not be
recorded on DoD financial statements (as other than construction in process) or in
accountability systems until the property is delivered to DoD. This business rule will be
incorporated into the DoD Financial Management Regulation.

       Questions concerning this memorandum and the attached business rule should be
directed to




             ... __.-?
      , ...--:;~~
    c: ... ··tma
          Und  ecretary of Defense
            (Comptroller)



Attachment:
As stated




                                       44
   Business Rule: Accounting for and Accountability of Contractor Acquired
                                  Property

DESCRJPTlON OF ISSUE

 The purpose of this paper is to provide the requirements for accounting for
 Contractor Acquired Property (CAP) in accordance with the provisions of
 Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting
for Property, Plant, and Equipment. It also addresses how CAP should be
 managed in the Government's accountability systems.


BACKGROUND

 Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting
for Property, Plant, and Equipment, requires that Property, Plant and Equipment
(PP&E) shall be recognized when title passes to the acquiring entity or when the
PP&E is delivered to the entity or to an agent of the entity. In the case of
constructed PP&E, the PP&E shall be recorded as construction-in-progress until it
is placed in service, at which time the balance shall be transferred to general
PP&E.

Contractor acquired property (CAP) is property obtained or otherwfse provided by
the contractor for performing a contract. Contractors may acquire ~roperty, as a
direct cost to the Government, to fulfill the contract's requirements. When this
occurs, the Government takes title to the property under the terms and conditions
of the Government property clause.

DoD policies, processes, and practices are structured on delivery, receipt and
acceptance of property. This aligns and is consistent with other DoD processes
and practices, e.g., Wide-Area Work Flow, Unique Item identification. Although
the DoD may have title to some property, e.g., property acquired, fabricated, or
otherwise provided by the contractor for performing a contract, such property has
not yet been delivered.

ACCOUNTING TREATMENT

The cost of contractor acquired property and other reimbursed costs should be
accumulated in the construction-in-progress (CIP) general ledger account for
posting to the applicable General Property, Plant, and Equipment account when
construction or manufacturing is completed. For General and Military Equipment,
construction-in-progress is transferred to the applicable General Property, Plant,




                                  45
and Equipment account on the date the asset is placed in service1 and recorded in
the appropriate property accountability system.

With respect to contractor acquired property, upon completion of the construction
or manufacture of end items for which the contractor acquired property was used
and delivery of the contractor acquired property to the Government, contractor
acquired property should either be capitalized in the appropriate Property, Plant,
and Equipment account or if the contractor acquired property does not meet the
capitalization threshold, such items should be recorded in the appropriate expense
account. The amount transferred from CIP will be the Contractor's estimated fully
burdened unit cost of contractor acquired property at the time of delivery to the
Government. 2

ACCOUNTABILITY TREATMENT

Upon delivery to the Government, contractor acquired property should be
recorded in the appropriate property accountability system. Consistent with DoDI
5000.64, there is no requirement for accountability by DoD Components for such
property prior to delivery to the Government. Third parties (to include
contractors) have stewardship responsibility, to include creating and maintaining
records of all Government property accountable to the contract, consistent with the
tenns and conditions of the contract or third party agreement, for the Government
property in their care.

AUTHORITATfVE GUIDANCE

Statement of Federal Financial Accounting Standards No.6, "Accounting for
Property, Plant, and Equipment"

DoDI 5000.64, "Accountability and Management ofDoD-Owned Equipment and
Other Accountable Property"

DoD Financial Management Regulation, Volume 4, Chapter 6 (now under
revision)




' DoD Financial Management Regulation (FMR}, DoD 7000.14·R, Volume 4, Chapter 6, " Property, Plant
and Equipment," (paragraph 060105) defines recognition for Military Equipment as "nonnally be the date
shown on Block 22, Receiver's Use, of the "Material Inspection and Receiving Report" (DO Fonn 250) 6r
the equivalent date source under Wide Area Work Flow."
2
  Defense Federal Acquisition Regulation Supplement (DFARS} 211.274-3 Policy for valuation.




                                       46
      Appendix C. Stryker Inventory Was Not Recorded or Assigned
      a Value in a DoD Accountability System

                                        Awards Contracts

                     PM Stryker/                                  General Dynamics
                      TACOM



                                                                 Billing Information


                                                    Purchase Order              Purchase Order
                                                        Issued                      Issued
                         General Dynamics                                                              General Dynamics-Canada
                        Sterling Heights, MI                                              1. Manufacture and Purchase Parts
                     Manufacture and Purchase Parts                                       2. Perform 3-way match of Purchase Order, Invoice,
                                                                                          and Receipt
                         Voucher

                                                         Multiple Vendors Deliver Spare             Receipt/
47




                                                          Parts and Repairable Items                Acceptance


     Payment
                                                                                                                                                     Garrison Locations
                              DCAA                Receipt/                                                                                          (Soldier Maintenance)
                     Reviews only General         Acceptance
                     Dynamics-US portion of
                     voucher and approves
                     whole voucher
                                                                  $ Inventory $
                                                             (spare and repair parts)

                                                   Government-Owned, Contractor-Operated                     European Distribution Center         Forward Repair Activity
                                                    Warehouse/Repair facility Auburn, WA                        (Contractor-Operated)              (Contractor-Operated)
                                                        (General Dynamics-Managed)*
                                DFAS
                                                 1. General Dynamics inspects and accepts
                                                 spare parts and repairable items.

                                                 2. Stryker inventory becomes Government
                                                 property to General Dynamics; however, PMO
                                                 Stryker still considered the inventory as                                                  General Dynamics Provides Parts for
                                                 contractor-acquired property.                                                                  Deployed Stryker Vehicles
                                                                                                                                                 (Contractor Maintenance)
                               Indicates movement of parts
                               Indicates billing, voucher, and payment process
       *Repair & Overhaul parts are repaired by General Dynamics or sent to original vendor for repair.
Appendix D. Baseline Valuation for DoD
Inventory and Operating Materials
and Supplies
                        OFFICE OF THE SECRETARY OF DEFENSE
                                     WASHINGTON, DC 20301




     MEMORANDUM FOR UNDER SECRETARY OF THE ARMY
                    UNDERSECRETARYOFTHENAVY
                    UNDERSECRETARY OF THE AIR FORCE
                    DIRECTOR, DEFENSE LOGISTICS AGENCY

     SUBJECT: Baseline Valuation and Certification for Department of Defense (DoD)
              Inventory and Operating Materials and Supplies

            The Under Secretary of Defense (Comptroller) (OUSD(C)) established an
     Inventory and Operating Materials and Supplies (I&OM&S) Working Group with
     representatives from the OUSD(C), the Office of the Under Secretary of Defense
     (Acquisition, Technology and Logistics), the DoD Military Components, and the Office
     of the Inspector General, DoD. The Working Group reviewed valuation methodologies
     and criteria and determined which ones would lead to an auditable historical I&OM&S
     baseline cost for the more than $200 billion reported in DoD's financial statements.

            The Deputy ChiefFinancial Officer issued a memorandum, dated July 6, 2001,
     directing the use of moving average cost as the approved historical cost method for DoD.
     There are several ongoing initiatives to modify existing systems or migrate to commercial
     systems to calculate historical cost and one of the most critical elements to achieving
     success is to determine and establish the initial baseline value for on-hand inventories.

             Attachments 1 through 3 provide summary and general criteria for addressing         Attachments 3
     I&OM&S baseline valuations, to include the proof-of-principle valuation methods report      through 5
     developed by the Working Group. Attachment 4 summarizes I&OM&S systems that are             omitted due
     currently capable of computing moving average cost or are in the process of being           to length.
     implemented at scheduled Component activities. Attachment 5 is the required baseline        Copies will be
     certification template which must be completed in accordance with the policies stated in
     Attachments 1 through 3.
                                                                                                 provided upon
                                                                                                 request.
            If you have questions, you may contact




         r Sec           efense
       (Acquisition, Technology and Logistics)

     Attachments:
     As stated
                                               0

                                               48
Policies and Requirements


• All DoD Components and activities reporting material amounts of I&OM&S on their
  audited financial statements must take action to establish historical moving average
  cost (MAC) baseline valuations in line with a process that parallels Attachments 2 and
  3, verify the physical existence of quantities used in baseline computations, and
  certify the work completed and the values computed as outlined in Attachment 5.

• All Components and activities must integrate the baselining procedures within their
  long range plans to provide I&OM&S line item assertions - and within their
  Enterprise Resource Planning tools or other systems design schedules to compute and
  maintain moving average cost.

• Components and activities may not continue to convert baseline valuations from one
  non-compliant value to another non-compliant value, e.g., from latest acquisition cost
  (LAC) to LAC without completing a reasonable and exhaustive baselining process.

        In addition, Attachment 4 lists I&OM&S systems which can currently compute
moving average cost, or are in the process of being implemented with or migrated to
MAC functionality. Some systems include conversions which have already taken place,
but which did not establish acceptable or auditable baselines. These systems represent
the first priority for acceptable baseline conversions since they should provide the
capability to sustain MAC values. Systems which have been converted from LAC to
LAC must be rebaselined as the most immediate priority.

       Systems which cannot currently maintain MAC, or which will not have MAC
functionality in the near future, represent potential risk and cost in terms of baseline
sustainment. For these systems, or for these categories ofl&OM&S, addressees should
consider possible sustainment alternatives and costs in their action plans. Alternatives
may include parallel automated software applications or personal computer based off-line
systems. In some instances, where there is a low volume of procurements and issues
such as high-dollar, low transactions items, manual based sustainment may be possible.
Sustainment alternatives and plans may also be impacted by the potential length of time
required for maintenance.

       Addressees should review the Attachments to this memorandum and the policies
stated above and provide this office with your Plan of Action and Milestones for
conducting baseline valuations for all material l&OM&S systems and for your I&OM&S
financial statement line item values. Your plans should consider the requirement to:

• Follow the attached baselining process prior to or in conjunction with all MAC
  systems conversions.

                                                                            Attachment I
                                                                              Page I of2




                                         49
• Include the process as a part of your Financial Improvement Business Rules for
  corrective actions, validations, and assertions.

• Take priority action to perform baseline valuations for those systems addressed in
  Attachment 4 and to re-baseline those systems that were not originally converted in
  accordance with this policy.

• Determine baseline sustainment alternatives and estimated costs for systems which
  cannot maintain moving average cost as discussed above.

• Provide evidence and your certification of supported and estimated values, to include
  verification of the physical existence of quantities used, as outlined in Attachment 2
  and in Attachment 5. Baseline certifications must be signed by addressees' Assistant
  Secretaries or Deputy Assistant Secretaries for Financial Management or Component
  Comptrollers or Deputy Comptrollers.




                                                                            Attachment I
                                                                              Page 2 of2




                                           50
Critical Steps for Inventory and Operating Materials & Supplies
Baseline Valuation

Verification of Physical Existence of Quantities. The following baseline valuation steps
are primarily predicated on an iterative and information gathering process utilizing data
in stock control, logistics, and inventory accounting systems which support and maintain
reportable on-hand quantities for Inventories and Operating Materials and Supplies
(I&OM&S). However, in order for baseline valuations to have audit creditability,
quantities used in the baseline valuation process must be verifiable to actual physical
existence. The actual physical existence and verification of quantities should be
performed at the beginning stage of the process, e.g., in conjunction with or after Steps 1
or 2. Early verification is necessary in order to preclude the potential for expending
significant resources going to the end of the process utilizing unsupported quantities.

Step 1 - Review all managed or held I&OM&S items with National Stock Numbers,
Manufacture's Part Numbers or other identifying item numbers in supporting I&OM&S
stock/logistics systems. Determine items which have quantities reported as "on-hand" by
the supporting system(s). Verify the accuracy and integrity of supporting systems that
compute and maintain quantities. Establish a workable database for all items being
baselined which had reported on-hand quantities.

Step 2- Determine and include in the database all available acquisition histories related
to items being baselined which had reported on-hand quantities. (Acquisition history
includes information and data elements in supporting logistics or management systems
indicating procurement action, such as last representative buy quantity and price.)

Step 3 - Determine initial baseline historical values for those items with reported on-hand
quantities using quantities for the most recent acquisition histories. Use the next most
recent acquisition data (and etc.) until all reported on-hand quantities being baselined
have been identified to an initial historical baseline value.

Step 4- Validate reported on-hand quantities with acquisition histories to supporting
source documentation, e.g., hardcopy contracts, contract data repositories, contract data
databases, or other supporting documentation such as delivery orders, purchase orders,
and receipt documentation.

Step 5 - Validate reported on-hand quantities with acquisition histories, but with no
supporting contract information, to corroborative information such as commercial sources
(for example, the IHS Corporation Federal Logistics Information System HAYSTACK
web-based database or other commercial pricing sources) or other similar and multiple
acquisition histories (e.g., with similar dollar values).




                                                                             Attachment 2
                                                                               Page I of2




                                             51
Step 6 - For reported on-hand quantities with acquisition histories, but no supporting
contract information and no acceptable corroborative information, determine the
availability of corroborative information for like items (for example, items classified as
interchangeable items and substitutable items).

Step 7 - For reported on-hand quantities with no acguisition histories and no supporting
contract information or corroborative information, determine alternative corroborative
correlations, e.g., standard price (less surcharges) comparisons to commercial price
catalogs.

Step 8 -For reported on-hand quantities with no acquisition histories and no supporting
contract information or corroborative or alternative corroborative information, determine
values of like items as defined by item managers. Use values for like items when like
items have supporting documentation or corroborative information.

Step 9 - For reported on-hand quantities with no acquisition histories and no acceptable
supponing contract or corroborative information, determine actual repair costs incurred
for on-hand quantities with repair histories as alternative corroborative information or as
an alternative item valuation. Validate repair costs to supponing documentation for
repair costs, e.g., depot maintenance work orders and commercial repair contracts.

Step 10- For reported on-hand reparable item quantities found in Step 9 above (with no
acquisition histories and no procurement or corroborative information) that cannot tie
corroborated to repair cost, use systems repair data as the alternative baseline valuation.

Step 11 - Determine the materiality to the financial statements of any reported on-hand
quantities which have not been assigned a supportable or corroborative baseline value
subsequent to completion of Steps 1 tl1rough 10. (In general, if materiality relative to the
total financial statement values is not l;ignificant, use the current catalog price for Step 11
items minus surcharges.)

Step 12- Assess the demand history o: the probability of items being sold or issued for
usc. Items which have no demand his1:ory, support obsolete and retired weapons systems,
or which have an otherwise remote chance of sale or issue should be baselined to a net
realizable value unless item managers can provide reasonable evidence to the contrary.

Step 13 - For items which represent material values, and which will potentially have
continued demand, determine alternative valuations for any items not valued subsequent
to Steps 1 through 12. Alternative valuations include information based on expertise of
item managers, Program Management Offices, budget programs for items in question,
cost or engineering estimates, price deflators, or alternative data bases. All alternative
baseline valuations should be documented for audit purposes.




                                                                                 Attachment 2
                                                                                  Page 2of2




                                              52
                           Appendix E. DoD OIG Classification of Stryker Inventory ($ millions)
                                                                                                           Contingency/
                                                                                                                                Excess, Obsolete,
                                                                               1    Requirements             Economic
                                                          Inventory On Hand                                                      Unserviceable
                                                                                   (Account 1521)2           Retention
                                                                                                                                (Account 1524)2
                                                                                                          (Account 1522)2
            DRAFT REPORT




                                                                                                                                                      Annual
                             Review                                                                                                                                 Years of
                                        Part Number         Qty        Value       Qty       Value        Qty       Value        Qty       Value      Demand
                             Part #                                                                                                                                Inventory
                                                                                                                                                       Qty3
                                                                                    Excess Inventory – Obsolescence
                                1      1310010-501             768     $56.898           0     0.000            0     0.000        768     $56.898            0            ∞
                                2      10655605-001             85       0.691           0     0.000            0     0.000         85       0.691            0            ∞




                                                                                                                                                                                  DRAFT REPORT
                                3      10657371-001             24       0.242           0     0.000            0     0.000         24       0.242            0            ∞
FOR OFFICIAL USE ONLY




                                4      LS1009617                26       0.165           0     0.000            0     0.000         26       0.165            0            ∞
  53
   38
   39




                                5      10626152                   7      0.001           0     0.000            0     0.000            7     0.001            0            ∞
                                         Subtotal (5)          910     $58.006           0     0.000            0     0.000        910     $58.006
                                                           Excess Inventory – Parts Can Be Used in Production or on a Higher Level Assembly
                                6      10655317-001          7,568      $0.893           0     0.000            0     0.000      7,568      $0.893            0            ∞
                                7      6600077-200           2,938       0.081           0     0.000            0     0.000      2,938       0.081            0            ∞
                                8      16102788-011             97       2.065           5    $0.106            5    $0.106         87       1.852            3          32.3
                                9      7578478-061              52       6.642           5     0.639            5     0.639         42       5.365            3          17.3
                               10      10650112                170       1.100        20       0.129         20       0.129        130       0.841           10          17.0
                                         Subtotal (5)       10,825     $10.781        30      $0.875         30      $0.875     10,765      $9.032
                           Note: Because of rounding, columns may not sum.
                           1
                             Quantity (Qty) as of January 30, 2012; excludes any quantities required to be held for the authorized stock list or flyways.
                           2
                             The DoD FMR 7000.14-R, volume 4, chapter 4, describes Account 1521 as “Inventory Purchased for Resale,” Account 1522 as “Inventory Held in Reserve
                           for Future Sale,” and Account 1524 as “Excess, Obsolete, and Unserviceable Inventory.”
                           3
                             Annual demand quantities based on General Dynamics’ 2-year demand forecasts, as of September 1, 2011.
                           ∞ Parts with no demand requirements; therefore, the years of inventory are infinite.
                                                                                      Contingency/
                                                                                                          Excess, Obsolete,
                                                         1    Requirements              Economic
                                    Inventory On Hand                                                      Unserviceable
                                                             (Account 1521)2            Retention
                                                                                                          (Account 1524)2
                                                                                     (Account 1522)2
                                                                                                                                Annual
       Review                                                                                                                                 Years of
                  Part Number         Qty        Value       Qty         Value       Qty       Value       Qty       Value      Demand
       Part #                                                                                                                                Inventory
                                                                                                                                 Qty3
                                        Excess Inventory – Reduced Demand and/or Excessive Procurement Quantity
         11      10650815              9,179      $0.572        15        $0.001        15     $0.001      9,149      $0.570            8       1,147.4
         12      10663271-001          1,845       1.303           3       0.002           3    0.002      1,839       1.298            2         922.5
         13      10663270-001          1,783       1.259        11         0.008        11      0.008      1,761       1.243            6         297.2
         14      10650813              2,581       1.007        98         0.038        98      0.038      2,385       0.931           49          52.7
         15      10650817              1,741       0.494        91         0.026        91      0.026      1,559       0.442           46          37.8
         16      10664080-001          1,831       1.317       113         0.081       113      0.081      1,605       1.154           57          32.1
                   Subtotal (6)       18,960      $5.951       331        $0.156       331     $0.156     18,298      $5.639
54




                                                                       Acceptable Inventory
         17      10080344                 35      $1.928        21        $1.157        14     $0.771            0     0.000           11           3.2
         18      10080435-01                8      3.241           6       2.431           2    0.810            0     0.000            3           2.7
         19      LS1048040-305            16       2.996        16         2.996           0    0.000            0     0.000           18           0.9
         20      10683033-001               3      0.041           3       0.041           0    0.000            0     0.000            9           0.3
         21      10650344-011             22       2.180        22         2.180           0    0.000            0     0.000          183           0.1
                   Subtotal (5)           84      10.386        68         8.805        16      1.582            0     0.000
                    Total (21)        30,779     $85.125       429        $9.835       377     $2.612     29,973     $72.677
     Note: Because of rounding, columns may not sum.
     1
       Quantity (Qty) as of January 30, 2012; excludes any quantities required to be held for the authorized stock list or flyways.
     2
       The DoD FMR 7000.14-R, volume 4, chapter 4, describes Account 1521 as “Inventory Purchased for Resale,” Account 1522 as “Inventory Held in Reserve
     for Future Sale,” and Account 1524 as “Excess, Obsolete, and Unserviceable Inventory.”
     3
       Annual demand quantities based on General Dynamics’ 2-year demand forecasts, as of September 1, 2011.
Appendix F. Summary of Potential
Monetary Benefits
  Recommendation             Type of Benefit              Amount of Benefit             Account

                         Economy and
                                                    $1.1 million of funds put to
                         Efficiency. Reduces                                         Army
                                                    better use by reusing existing
                         costs for future                                            Working
          5.b                                       engine containers instead of
                         requirements by using                                       Capital Fund –
                                                    purchasing new engine
                         current inventory to                                        97X4930.001
                                                    containers.
                         meet demand.
Note: Potential monetary benefits are funds put to better use or questioned costs.




                                                    55
Defense Procurement and Acquisition Policy Comments




                 Click to add JPEG file




                                  56
Department of the Army Comments




                Click to add JPEG file




                                  57
Click to add JPEG file




                 58
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




                 59
Click to add JPEG file




                 60
Click to add JPEG file




                 61
Click to add JPEG file




                 62
Click to add JPEG file




                 63
Click to add JPEG file




                 64
Click to add JPEG file




                 65
Click to add JPEG file




                 66
Click to add JPEG file




                 67
Click to add JPEG file




                 68
Click to add JPEG file




                 69
Click to add JPEG file




                 70
Click to add JPEG file




                 71
Click to add JPEG file




                 72
Click to add JPEG file




                 73
Click to add JPEG file




                 74
Click to add JPEG file




                 75
Click to add JPEG file




                 76
                            Final Report
                             Reference




Click to add JPEG file



                         On October 31, 2012,
                         the Deputy PEO
                         revised his response.
                         See page 82.




                 77
Click to add JPEG file




                 78
                            Final Report
                             Reference




Click to add JPEG file

                         On October 31, 2012,
                         the Deputy PEO
                         revised his response.
                         See page 82.




                 79
Click to add JPEG file




                 80
Click to add JPEG file




                 81
Click to add JPEG file




                 82
